No. _______
In The

Supreme Court of the United States
-------------------------- ♦ ---------------------------

C. AL BUIS,
Petitioner,
v.

ARLINGTON COUNTY CIRCUIT COURT
17 JUDICIAL CIRCUIT OF VIRGINIA, ET AL.,
TH

Respondents.
-------------------------- ♦ --------------------------

On Petition for a Writ of Certiorari to
the Supreme Court of Virginia
-------------------------- ♦ --------------------------

PETITION FOR A WRIT OF CERTIORARI
-------------------------- ♦ --------------------------

David B. Tatge
Counsel of Record
DAVID B. TATGE, PLLC
13000 Grey Friars Place
Oak Hill, Virginia 20171
(703) 991-6987 (Telephone)
(703) 639-4487 (Facsimile)
dtatge@tatgelawpllc.com
Counsel for Petitioner

Dated: July 1, 2021

THE LEX GROUPDC i 1050 Connecticut Avenue, N.W. i Suite 500, #5190 i Washington, D.C. 20036
(202) 955-0001 i (800) 856-4419 i www.thelexgroup.com

i
QUESTION PRESENTED
The Due Process Clause of the Article 14 of the
Constitution allows state courts to exercise specific
jurisdiction over a nonresident defendant only if the
plaintiff’s litigation claims “arise out of or relate to”
the defendant’s forum conduct. Burger King Corp. v.
Rudzewicz, 471 U.S. 462, 472-473, 105 S. Ct. 2174,
2182, 85 L. Ed. 2d 528 (1985). To give fair warning of
possible suit there, for “a State to exercise jurisdiction
consistent with due process, that relationship
[between the defendant and the forum] must arise out
of contacts that the defendant himself creates with
the forum…”. Walden v. Fiore, 571 U.S. 277, 284, 113
S. Ct. 1115, 1122, 188 L. Ed. 2d 12 (2014) (emphasis
in the original).
The question presented is:
In a suit on a loan guaranty, can specific
personal jurisdiction be involuntarily created over an
out-of-state guarantor based solely on a co-defendant’s
consent, for itself, to a forum-selection consent clause
in its two-party borrower agreement with the lender,
when the guarantor did not negotiate or sign the codefendant’s borrower agreement nor sign or approve
the defendant’s alleged guaranty agreement, which
guaranty had no forum consent clause itself and did
not reference the forum consent clause in the
borrower agreement?

ii
PARTIES TO THE PROCEEDING
Mr. C. Al Buis, petitioner on review, was the
petitioner below and a defendant in the trial court.
The Arlington County Circuit Court, 17th
Judicial Circuit of Virginia, and the Honorable
William T. Newman, Jr., thereof, respondents on
review, were the nominal respondents below.
DLI Assets Bravo LLC, a California limited
liability company, is plaintiff of record and the real
party in interest per the Complaint filed in the trial
court.1
In April 2021, the trial court granted Petitioner leave to file an
Amended Plea in Bar and Demurrer dated April 2, 2021, whose
new first Plea therein is that the litigation below should be
dismissed as a legal nullity, ab initio, because the Plaintiff of
record below, DLI Assets Bravo, LLC, allegedly a California
limited liability company (Complaint, ¶1) does not legally exist.
No such domestic limited liability company of that name is
shown on the records of the California Secretary of State.
Rather, that site shows only a foreign limited liability company
of the same name formed under Nevada law who is doing
business in California. Therefore, Petitioner has argued below,
even if there was only a misnomer, not a misjoinder, the case
must still be dismissed. See Estate of James v. Peyton, 277 Va.
442, 453, 674 S.E.2d 864, 868-69 (2009) (even where a plaintiff’s
change of name is a misnomer, not a misjoinder, a named
plaintiff who lacks standing cannot later be substituted by a new
plaintiff who does have standing; rather, the case is a legal
nullity so must be dismissed, ab initio). By a Memorandum
Opinion dated June 8, 2021, the trial court dismissed this first
Plea claiming lack of standing but, so far, an associated
judgment has not yet been entered. Petitioner intends to file a
Notice of Appeal from this ruling. He has also sought leave of the
trial court, not yet ruled on, to bring a second interlocutory
appeal to the Supreme Court of Virginia, on this new “plaintiff
lacks standing” issue. All references herein to “Plaintiff,” DLI
Assets Bravo, LLC”, DLI,” etc. do not waive this objection.
1

iii
RULE 29.6 DISCLOSURE STATEMENT
Petitioner, who was Defendant below, is an individual
and not a nongovernmental corporation. As such, he
cannot have a “parent corporation” and no publicly
traded corporation can have or has a more than 10%
ownership of him.
RELATED PROCEEDINGS
Supreme Court of Virginia:
C. Al Buis, Petitioner v. DLI Assets Bravo, LLC,
Respondent, Record No. 201082 (Va. Nov. 30,
2020), denying Petition for Appeal, Petition For
Rehearing denied (Va. Feb. 5, 2021).
Arlington County Circuit Court:
DLI Assets Bravo, LLC v. Backwoods Retail,
Inc., et. al., CL No. 19001027-00, Arlington
County (Va.) Cir. Ct. (circuit court proceeding)
and, therein, the July 14, 2020, Order Denying
Defendant’s Motion To Quash Service And To
Dismiss For Lack Of Personal Jurisdiction By
Special Appearance (the “Motion to Quash”),
and the Certificate of Interlocutory Appeal
thereon entered Aug. 14, 2020.

iv
TABLE OF CONTENTS
Page
QUESTION PRESENTED .......................................... i
PARTIES TO THE PROCEEDING ........................... ii
RULE 29.6 DISCLOSURE STATEMENT ................iii
RELATED PROCEEDINGS .....................................iii
TABLE OF CONTENTS............................................ iv
TABLE OF AUTHORITIES .................................... viii
OPINIONS BELOW ................................................... 2
JURISDICTION ......................................................... 2
CONSTITUTIONAL
AND
STATUTORY
PROVISIONS INVOLVED......................................... 3
INTRODUCTION ....................................................... 6
STATEMENT OF THE CASE ................................. 10
A.

Background ............................................... 10

B.

Constitutional objections .......................... 11

C.

Evidentiary Hearing on Motion to
Quash ........................................................ 13

D.

Trial Court Judgment, denying the
Motion to Quash ....................................... 17

E.

Certification of Interlocutory Appeal ....... 18

F.

Supreme Court of Virginia Appeal .......... 19

v
REASONS FOR GRANTING THE WRIT ............... 22
I.

This Court clearly has jurisdiction,
unless it determines that the
November 30, 2020, judgment, which
employed
language
historically
construed as being an adverse
summary adjudication on the merits,
is no longer such due to section “D” of
Va. Code §8.01-670.1, enacted July 1,
2020. That is not clearly the case, so
this Petition is filed .................................. 22
A.

This Court has jurisdiction
over final judgments of a
state’s highest court on
discrete federal questions,
even if actions are continuing
against the Petitioner and
others on state law claims .............. 22

B.

Virginia case law to date has
treated denial of a Petition For
Appeal by the Supreme Court
of Virginia as a summary
adjudication on the merits ............. 25

C.

Expansion
of
the
civil
jurisdiction of the Court of
Appeals of Virginia effective
January 1, 2022 ............................. 26

D.

Effects (or not) of Va. Code
§8.01-670.1(D) on whether the
November 30, 2020, judgment
of the Supreme Court of
Virginia is now a “final” order ....... 27

vi
II.

The November 30, 2020, judgment of
the Supreme Court of Virginia
represents an unwarranted and
dangerous expansion of specific
personal jurisdiction and conflicts
with several reported decisions of
this Court. S. Ct. Rule 10 supports
accepting this Petition For A Writ of
Certiorari .................................................. 32

III.

The November 30, 2020, judgment of
the Virginia Supreme Court, left in
place on February 5, 2021, was
wrong. Law from other states shows
that ............................................................ 35

IV.

This case presents an excellent
opportunity for this Court to clarify,
nationally, the permissible scope of
specific personal jurisdiction, in the
context of an alleged guarantor, and
advance Virginia law ................................ 36

CONCLUSION ......................................................... 37
APPENDIX:
Order of
The Supreme Court of Virginia
Re: Refusing the Petition for Appeal
entered November 30, 2020 ..................... 1a
Certification of Interlocutory Appeal of
The Circuit Court for Arlington County
entered August 14, 2020........................... 2a

vii
Order of
The Circuit Court for Arlington County
Re: Denying Defendant’s Motion to Quash
Service and to Dismiss for Lack of Personal
Jurisdiction by Special Appearance
entered July 14, 2020 ............................... 5a
Order of
The Supreme Court of Virginia
Re: Denying Petition for Rehearing
entered February 5, 2021 ......................... 7a
U.S. CONST. amend. XIV, § 1 ............................... 8a
Va. Code § 8.01-328.1 .......................................... 9a
Va. Code § 8.01-670.1 ........................................ 12a
28 U.S.C. § 1257(a) ............................................ 15a
Complaint,
With Exhibits,
filed March 27, 2019 ............................... 16a
Affidavit of C. Al Buis
dated February 29, 2020 ........................ 66a
Excerpts of Transcript of Motion Hearing before
The Honorable William T. Newman, Jr.
on June 26, 2020 ..................................... 69a

viii
TABLE OF AUTHORITIES
Page(s)
CASES
Alper v. Cordova,
64 Va. Cir. 87, 2007 WL 515230
(Fairfax County Cir. Ct. Feb. 24, 2004) ........ 12
BioVeris Corp. v. Wohlstadter,
69 F. Supp. 3d 574 (W.D. Va. 2014) ...... passim
Burger King Corp. v. Rudzewicz,
471 U.S. 462, 105 S. Ct. 2174,
85 L. Ed. 2d 528 (1985) .......................... passim
Canslor v. Clarke,
No. 2:13-cv-116, 2014 WL 423097
(E.D. Va. Aug. 25, 2014) ................................ 26
Consulting Engineers Corp. v. Geometric, Ltd.,
561 F.3d 273 (4th Cir. 2014) .......................... 6-7
Countryside Orthopaedics, P.C. v. Peyton,
261 Va. 142, 541 S.E.2d 279 (2001) ....... passim
Cox Broadcasting Corp. v. Cohn,
420 U.S. 469, 95 S. Ct. 1029,
43 L. Ed. 2d 328 (1975) ............................ 23, 27
District of Columbia Court of Appeals v. Feldman,
460 U.S. 462, 103 S. Ct. 1303,
460 L. Ed. 2d 462 (1983) ................................ 25
Eastern Technological Enterprises, Inc. v.
Wilson & Hayes, Inc.,
46 Va. Cir. 558
(Norfolk City Cir. Ct. July 10, 1997) ............. 20

ix
Estate of James v. Peyton,
277 Va. 443, 674 S.E.2d 864 (2009) ........... ii, 14
Ford Motor Company v. Mont. Eighth Jud. Dist. Ct.,
__ U.S. ___, 141 S. Ct. 1017,
209 L. Ed. 2d 225 (2021) .................... 32, 33, 34
IOU Central, Inc. v. Big State Tire and Axle, Inc.,
No. 1:20-CV-200-MHC, 2020 WL 6588742
(N.D. Ga. Oct. 8, 2020) .............................. 35-36
Iron City Sav. Bank v. Isaacsen,
158 Va. 609 (1932) ......................................... 20
Peninsula Cruise, Inc. v.
New River Yacht Sales, Inc.,
257 Va. 315, 512 S.E.2d 560 (1999) ................. 6
Preston v. Legard,
160 Va. 364 (1933) ......................................... 14
Radio State WOW, Inc. v. Johnson,
328 U.S. 120, 65 S. Ct. 1475,
89 L. Ed. 2d 562 (1945) .................................. 23
Renoir v. Virginia,
No. 7:99-cv-580, 2001 WL 34801301
(W.D. Va. July 31, 2001) ................................ 26
Samuel v. Samuel,
Record Nos. 2501-01-2, 1417-02,
2004 WL 135895
(Va. Ct. App. Jan. 28, 2004) ........................... 31
Walden v. Fiore,
571 U.S. 277, 113 S. Ct. 1115,
188 L. Ed. 2d 12 (2014) .......................... passim

x
CONSTITUTIONAL PROVISIONS
U.S. CONST. amend. XIV............................................. 6
U.S. CONST. amend. XIV, §1 ....................................... 3
STATUTES
28 U.S.C. §1257................................................. passim
28 U.S.C. §1257(a) ................................................... 5-6
Va. Code §8.01-277.1 ................................................ 14
Va. Code §8.01-328.1 .................................................. 3
Va. Code §8.01-670.1 ......................................... 4-5, 30
Va. Code §8.01-670.1(D) ................................... passim
RULES
S. Ct. Rule 10 ...................................................... 32, 35
OTHER AUTHORITIES
https://virginia-appeals.com/a-quick-read-onappellate-statistics/#.YNTDqxGSmUk .................... 27
Judicial Council of Virginia to Study
Expansion of the Court of Appeals’
Jurisdiction, Organized
(www.normanthomaslaw.com) ................................. 27
S.B. 1381, https://tinyurl.com/y6zv5qd2- ................. 31
The Executive Summary of an August 30,
2019, Memorandum to John Keith, Chairman
of the Boyd-Graves Conference .................... 29, 30, 31

1

IN THE

Supreme Court of the United States
_________
No. 21_________
C. AL BUIS,
Petitioner,
v.
ARLINGTON COUNTY CIRCUIT COURT,
17th JUDICIAL CIRCUIT OF VIRGINIA, et al.,
Respondents.
_________
On Petition for a Writ of Certiorari to
the Supreme Court of Virginia
_________
PETITION FOR A WRIT OF CERTIORARI
_________
Mr. C. Al Buis respectfully petitions for a writ
of certiorari to review the judgment of the Supreme
Court of Virginia in this case.

2
OPINIONS BELOW
The Supreme Court of Virginia’s judgment of
Nov. 30, 2020, denying a Petition For Appeal filed by
Petitioner from a July 14, 2020, judgment of the
Arlington County (Va.) Circuit Court (App. at 1a), and
the Supreme Court of Virginia’s later ruling of Feb. 5,
2021, denying a Petition For Rehearing thereof (App.
at 7a.) Both are unreported.
On July 14, 2020, the Arlington County Circuit
Court, 17th Judicial Circuit Of Virginia entered a
judgment which denied Petitioner’s February 20,
2020, Motion To Quash Service And To Dismiss For
Lack Of Personal Jurisdiction By Special Appearance
(the “Motion To Quash”) (App. at 5a-6a). This
judgment was certified for appeal to the Supreme
Court of Virginia by a Certification of Interlocutory
Appeal dated August 14, 2020. (App. at 2a-4a). Both
rulings are unreported.
JURISDICTION
The November 30, 2020, judgment of the
Supreme Court of Virginia, once Rehearing was
denied on February 20, 2021, represents a “final
order” on the merits from Virginia’s highest court
sufficient to create jurisdiction in this Court under 28
U.S.C. §1257, unless this Court were to find that
clause “D” of Va. Code §8.01-670.1, enacted effective
July 1, 2020 and on which there is no case law yet,
compels a contrary ruling. This Petition is filed to
assure that jurisdiction in this Court exists under
28 U.S.C. §1257 if the Court determines that §8.01670.1(D) does not allow further state court appellate
review of the underlying July 14, 2020, trial court
judgment complained of.

3
This Court’s Order of March 19, 2020, extended
the date within which to file a Petition For A Writ Of
Certiorari therefrom to July 6, 2021, 150 days from
the appellate court’s last ruling.
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
The Due Process Clause of the Fourteenth
Amendment, U.S. Constitution, amend. XIV, §1,
provides:
[N]or shall any State deprive any person
of life, liberty, or property, without due
process of law.
Va. Code §8.01-328.1, the Commonwealth’s
long-arm statute (App. at 9a-11a) provides, in
relevant part,2 that:
A. A court may exercise personal
jurisdiction over a person, who acts
directly or by an agent, as to a cause of
action arising from the person’s:
1. Transacting any business in this
Commonwealth.
2. Contracting to supply services or
things in this Commonwealth.
…

There is no claim by Plaintiff in the Complaint below that
Petitioner’s conduct created tortious injuries in Virginia by acts
of Petitioner, in or out of the Commonwealth.

2

4
Va. Code §8.01-670.1, titled Appeal of
Interlocutory orders and provisions by permission,
immunity (App. at 12a-14a) says, in relevant part:
A. When, prior to the commencement of
trial, the circuit court has entered in any
pending civil action, except any matters
appealable to the Court of Appeals
pursuant to § 17.1-405, an order or
decree that is not otherwise appealable,
any party may file in the circuit court a
motion requesting that the circuit court
certify such order or decree for
interlocutory appeal.
The motion shall include a concise
analysis of the statutes, rules, or cases
believed to be determinative of the
issues and request that the court certify
in writing that the order or decree
involves a question of law as to which
(i) there is substantial ground for
difference of opinion, (ii) there is no
clear, controlling precedent on point in
the decisions of the Supreme Court of
Virginia or the Court of Appeals of
Virginia, (iii) determination of the issues
will be dispositive of a material aspect of
the proceeding currently pending before
the court, and (iv) it is in the parties’ best
interest to seek an interlocutory appeal.
If the request for certification is opposed
by any party, the parties may brief the
motion in accordance with the Rules of
the Supreme Court of Virginia.

5
Within 15 days of the entry of an order
by the circuit court granting such
certification, a petition for appeal may
be filed with the appellate court that
would have jurisdiction in an appeal
from a final judgment in the proceeding.
If the appellate court determines that the
certification by the circuit court has
sufficient merit, it may, in its discretion,
permit an appeal to be taken from the
interlocutory order or decree and shall
notify the certifying circuit court and
counsel for the parties of its decision.
…
D. The failure of a party to seek
interlocutory appeal under this section
shall not preclude review of the issue on
appeal from a final order. An order by
the appellate court denying review
under this section shall not preclude
review from a final order, unless the
order denying such interlocutory review
provides for such preclusion.
(emph. added)
Finally, the text of 28 U.S.C. §1257(a) (App. at
15a) says that:
Final judgments or decrees rendered by
the highest court of a State in which a
decision could be had, may be reviewed
by the Supreme Court by writ of
certiorari…. where the validity of a
treaty or statute of the United States is

6
drawn in question or where the validity
of a statute of any State is drawn in
question on the ground of its being
repugnant to the Constitution, treaties,
or laws of the United States, or where
any title, right, privilege, or immunity is
specially set up or claimed under the
Constitution or the treaties or statutes
of, or any commission held or authority
exercised under, the United States.
INTRODUCTION
Petitioner, a Texas resident and an alleged
loan guarantor, has been unfairly subjected to
litigation in Virginia’s courts in violation of his rights
to due process under the Fourteenth Amendment, and
Virginia’s long-arm statute also. The statutory and
the constitutional inquiries are one and the same and
merge. See e.g. Peninsula Cruise, Inc. v. New River
Yacht Sales, Inc., 257 Va. 315, 319, 512 S.E.2d 560,
562 (1999):
[t]he purpose of Virginia’s long arm
statute is to assert jurisdiction over
nonresidents who engage in some
purposeful activity in this State to the
extent permissible under the due
process clause.
Accord Consulting Engineers Corp. v. Geometric,
Ltd., 561 F.3d 273, 277 (4th Cir. 2014):
Because Virginia’s long-arm statute is
intended to extend personal jurisdiction
to the extent permissible under the due

7
process clause, the statutory inquiry
merges with the constitutional inquiry.
In Burger King Corp. v. Rudzewicz, 471 U.S.
462, 471-72, 105 S. Ct. 2174, 2181-82, 85 L. Ed. 2d 528
(1985), this Court held that:
The Due Process Clause protects an
individual’s liberty interest in not being
subject to the binding judgments of a
forum in which he has no meaningful
“contacts, ties or relations.”
By
requiring that individuals have “fair
warning” that a particular activity may
subject [them] to the jurisdiction of a
foreign sovereign.
…
This “fair warning” requirement is
satisfied
if
the
defendant
has
“purposefully directed” his activities at
residents of the forum, and the litigation
results from alleged injuries that “arise
out of or relate to” those activities.
(internal citations omitted; punctuation
modified; emph. added).
See also Walden v. Fiore, 571 U.S. 277, 284, 134
S. Ct. 1115, 1121-1122, 186 L Ed. 2d 82 (2014):
For a State to exercise jurisdiction
consistent with due process, the
defendant’s suit-related conduct must
create a substantial connection with the
forum State. Two related aspects of this

8
necessary relationship are relevant to
[the subject] case.
First, the relationship must arise out of
contacts that the defendant himself
creates with the forum State [emph. in
the original, citing Burger King]. …
…
Second, our “minimum contacts”
analysis looks to the defendant’s
contacts with the forum State itself, not
the defendant’s contacts with persons
who reside there.
The sole basis given by the Circuit Court in
denying the Motion to Quash rested in a consent to
Virginia jurisdiction given by Petitioner’s codefendant, Backwoods Retail, Inc. (“Backwoods”), for
itself, alone, in the forum selection clause of a twoparty “Borrower Agreement” attached to the
Complaint as Ex. A (App. 27a-60a) whose stated
parties were Backwoods and the lender named
therein, QuarterSpot. This Ex. A agreement, it held,
could be read together, as one, with Petitioner’s
alleged loan guaranty, titled a Borrower Validity
Agreement, part of Ex. D to the Complaint (App. at
65a), which had no forum consent clause itself nor
cross-referenced the forum clause in the Ex. A
agreement. The basis for the court’s decision, as had
been urged by the Plaintiff below, was Countryside
Orthopaedics, P.C. v. Peyton, 261 Va. 142, 541 S.E.2d
279 (2001).
The Circuit Court’s extension of the codefendant’s own consent to Virginia jurisdiction over

9
Petitioner, affirmed on appeal, violated the
Petitioner’s rights to Constitutional due process as:
x

under Burger King and Walden,
consent by an out-of-state defendant
to the jurisdiction of a foreign State
can only arise from the defendant’s
own actions and conduct, alone, not
the actions of a third-party codefendant.

x

Petitioner’s unrebutted evidence,
from both documents admitted into
evidence and his phone testimony,
not crossed, was, among other things,
that he did not sign, initial or even
know of his alleged guaranty, part of
Complaint Ex. D, titled a Borrower
Validity Agreement (App. at 65a).
The document which bore his typed
name followed by the initials CAB, he
testified, was not in his handwriting
nor approved by him. Countryside
was thus clearly inapplicable as
there were not two signed contracts
for the Circuit Court to even consider
reading together as one to start with.

x

A 2014 decision from the federal
district court for the Western District
of Virginia, BioVeris Corp. v.
Wohlstadter, 69 F. Supp. 3d 574
(W.D. Va. 2014), established that the
Ex. A and D documents were clearly
two stand-alone agreements, not one.
Yet, the trial court, and later the

10
Supreme Court of Virginia, refused
Petitioner’s call to adopt and apply
BioVeris as Virginia law.
The Court should grant this writ, rule that
specific personal jurisdiction does not exist over
Petitioner and order him to be dismissed from the
Virginia state court litigation below, unless Va. Code
§8.01-670.1(D), a new statute discussed below, bars
relief. It appears likely not to.
STATEMENT OF THE CASE
A.

Background

This Petition arises from collection litigation
against an out-of-state borrower and two alleged
individual guarantors, one being the Petitioner, to
collect a defaulted corporate loan debt. The Plaintiff
of record, DLI Assets Bravo, LLC, a California limited
liability company (“DLI”) filed a Complaint on March
27, 2019, in the Arlington County Circuit Court
claiming to be the present noteholder, as a second-tier
assignee of the original lender.
DLI named Petitioner C. Al Buis, a citizen of
Texas, as a defendant, claiming he guaranteed the
loan. As alleged in the Complaint, a Texas company,
co-defendant Backwoods Retail, Inc., borrowed money
from a Delaware lender, QuarterSpot, Inc. The
borrower and lender executed a Borrower Agreement,
and the borrower signed a promissory note (App. at
56a-60a). Complaint (App. at 16a, et. seq.), ¶¶1, 2, and
6 (App. at 17a and 18a).
DLI pleaded it was the holder of the note
because of two allonges – the first, from QuarterSpot

11
to a DLI affiliate dated August 24, 2017, attached to
the Complaint (App. at 61a), and a second Allonge the
same day (not so attached) from that affiliated entity
to DLI itself. Id. at 3, ¶11 (App. at 19a). Plaintiff
alleged that the corporate borrower had defaulted on
the note. Id., ¶13.
Count III of the Complaint is directed to Buis.
It does not allege that he executed the Borrower
Agreement or the promissory note itself. It claims
instead that he signed a two-paragraph document
called a “Borrower Validity Agreement,” Ex. D to
the Complaint, under which he indemnified
“QuarterSpot” against losses from any breach of two
specific paragraphs of an unidentified document
titled the “Loan Agreement,” which was not attached
to the Complaint. See Complaint, Exhibit D (App. at
65a) first paragraph.
The Borrower Agreement and the note, Ex. A
thereto, both provide that “Borrower hereby expressly
consents to Virginia law and forum.” Complaint,
Exhibit A (Borrower Agreement, §38 (App. at 53a54a); note, p. 2) (App. at 59a-60a). Petitioner
concededly did not sign either of these documents.
The
Borrower
Validity
Agreement
bearing
Petitioner’s typed name, followed by initials CAB,
which DLI alleged that he did sign, contains no
forum-selection provision itself and does not reference
the forum selection clause in the Ex. A Borrower
Agreement. Complaint, Exhibit D (App. at 65a).
B.

Constitutional objections

Buis, by counsel, appeared specially to contest
in personal jurisdiction over him. His first objection
was the Motion to Quash filed February 20, 2020.

12
Petitioner pled that his signature was not on the
guaranty, that he had insufficient contacts with
Virginia to create any jurisdiction over him, and that
the Complaint nowhere asserted the basis on which
jurisdiction was claimed, nor proved to the contrary.
He also said (Motion to Quash at 4):
Buis has not yet pled on the merits and
herein seeks solely to have this case
dismissed and the related summons
quashed by special appearance of his
undersigned counsel solely to contest the
Court’s personal jurisdiction over him.
On March 6, 2020, Plaintiff DLI filed its
Opposition to the Motion to Quash. DLI then asserted
that Buis was bound by the forum selection clause
found in ¶38 of the Borrower Agreement, a document
between his-co-defendant and the lender, alone.
In response, Buis filed a Memorandum of Law
of March 26, 2020. One of its exhibits was his original
February 29, 2020, Affidavit (App. at 66a-68a) which
said, among other jurisdictional facts, that the initials
“CAB” on the Ex. D Borrower Agreement (on which
his name was typed in the signature block) were not
in Petitioner’s handwriting, that he had no
recollection of the Ex. D guaranty and had not
negotiated any financing for Backwoods with the
Plaintiff.
Petitioner’s brief cited Alper v. Cordova, 64 Va.
Cir. 87, 2007 WL 515230 (Fairfax County Cir. Ct. Feb.
24, 2004), which held that a defendant’s typed name
found on a document in the Commonwealth did not
create specific personal jurisdiction if that was the
defendant’s only contact with the forum. Petitioner

13
also cited and applied the various BioVeris tests to
show that, properly considered, the Ex. A Borrower
Agreement and the Ex. D Borrower Validity
Agreement were two separate documents, not one, as
Plaintiff’s argument for jurisdiction urged. Meaning,
Petitioner argued in his legal memorandum, that
even if the Ex. D guaranty were treated as signed,
when it should not be so treated, it still could not be
construed as one, together with the Ex. A Borrower
Agreement, to bind Petitioner to Virginia jurisdiction,
solely by his co-defendant’s consent to that effect in
the Ex. A document for itself, alone, as Plaintiff
maintained.
Petitioner urged that BioVeris be
adopted as Virginia law.
C.

Evidentiary Hearing on Motion to Quash

On June 26, 2020, as expressly requested by
Buis in his February 20, 2020, Motion To Quash, an
evidentiary hearing was held thereon. After taking
evidence from Petitioner Buis, in the form of
documents and phone testimony (a personal
appearance not being possible in those early days of
COVID), and after hearing argument from counsel,
the Circuit Court nevertheless denied Petitioner’s
Motion to Quash. The sole basis given by the Court
for its ruling was that the Ex. A and the Ex. D
agreements could be read together as one, as the
Plaintiff had urged. Thereby extending Backwoods’
consent to Virginia jurisdiction for itself, in the Ex.
A Borrower Agreement, involuntarily over the
Petitioner.
Even though, the evidence showed,
Petitioner had neither negotiated nor signed the Ex.
A document, nor signed or approved the Ex. D
guaranty either, which had no forum selection clause
itself nor referenced the co-defendant’s forum consent

14
in the Ex. A Borrower Agreement. The Circuit Court
entered its associated judgment on July 14, 2020.3
Elaborating, Petitioner’s evidence at the June
26, 2020, evidentiary hearing on his Motion To
Quash, by both (i) his Feb. 29, 2020, Affidavit [App. at
66a-68a] and other documents now moved and
admitted into evidence, and his (ii) phone testimony
also, was that:
x

he did not know the original lender,
QuarterSpot, and had never spoken
with nor contacted it to request
financing for Backwoods. And, that
he had he never negotiated financing
on behalf of Backwoods with it.

To avoid default, Buis filed his initial responsive pleading to
the Complaint in the Circuit Court on August 4, 2020. This took
the form of a Plea in Bar and Demurrer which now included
Statute of Frauds and various other merits defenses not pled
earlier in the Motion to Quash. It also included a plea, again,
that the trial court lacked personal jurisdiction over Petitioner,
notwithstanding the trial court’s July 14, 2020, ruling to the
contrary, to preserve the issue for appeal. Petitioner’s filing of
the Plea in Bar and Demurrer did not waive his earlier
jurisdictional objection. Va. Code §8.01-277.1; Preston v. Legard,
160 Va. 364, 372 (1933). Months later, an Amended Plea in Bar
and Demurrer, dated April 2, 2021, was filed with leave of the
Circuit Court. It now added, as a new first Plea, that the Plaintiff
of record was a non-existent legal entity which had no authority
or standing to file the Complaint below. Requiring, Petitioner
urged, that the case below be dismissed as a legal nullity, ab
initio, under Estate of James v. Peyton, 277 Va. 443, 453, 674
S.E.2d 864, 866-69 (Va. 2009). This Amended Plea In Bar and
Demurrer still included, as one of the pleas, a plea that the trial
court lacked personal jurisdiction over Defendant, to avoid
claims of waiver.
3

15
x

the initials CAB on the Borrower
Validity Agreement attached to the
Complaint as part of Ex. D [App. at
65a] were NOT in his handwriting
nor authorized by him. He had never
signed or initialed his alleged Ex. D
guaranty or agreed to let anyone do
so for him, nor agreed to any use of
electronic signatures.

x

he owned no stock in Backwoods
directly and had only an 8% indirect
interest therein.

x

Backwoods, bankrupt several years
ago, had operated no stores in
Virginia and was not registered to do
business in the Commonwealth, and

x

he had, personally, no Virginia assets
or connections (thus, with his other
evidence, no contacts sufficient to
create support general or specific
jurisdiction over him there).

DLI did not cross examine Petitioner on June
26, 2020, nor present any evidence of its own that day.
Rather, DLI merely argued that Countryside should
be extended to create involuntary personal
jurisdiction over Buis based not on his own conduct,
alone, but solely on a consent to Virginia jurisdiction
made by co-defendant Backwoods for itself, alone, via
the forum selection clause of the Ex, A Borrower
Agreement.
The Ex. A Borrower Agreement, whose only
exhibit was a promissory note from co-defendant

16
Backwoods to QuarterSpot, did not reference therein
any personal guarantees of that loan, by Petitioner or
anyone else. It also did not have any reference to
Petitioner by name. The Ex. A “Borrower Agreement”
was not signed in Backwoods’ corporate name but,
rather, allegedly, by co-defendant, Ms. Jennifer
Neuhaus, whose revocable trust was the 60% majority
shareholder of Backwoods’ parent company. The Ex.
A document had as its sole exhibit Backwoods alleged
promissory note to QuarterSpot.
Petitioner’s’
alleged
Borrower
Validity
Agreement, part of Ex. D to the Complaint.4 stated
that its purpose was “To induce QuarterSpot to enter
into a Borrower Agreement with the Borrower.”
However, the Ex. D guaranty document for Buis
(App.65a) did not identify who the parties to the
“Borrower Agreement” referenced therein were, the
date of that “Borrower Agreement,” nor what the
terms of any loan under the “Borrower Agreement”
referenced in the Ex. D document even were. Details
of the “Loan Agreement” referenced in the Ex. D
guaranty were similarly lacking.
DLI
nevertheless argued that
under
Countryside, which it cited by name for the first time
only at the hearing, the Ex. A Borrower Agreement
had to be read and construed as one document,
together, with Buis’ alleged Ex. D Borrower Validity
Agreement. So, DLI asserted, that in this backdoor
and improper fashion Backwoods’ own consent to
Virginia jurisdiction in ¶38 of the Ex. A Borrower
Ex. D to the Complaint also includes a second guaranty, a
similar two-paragraph document also titled a “Borrower Validity
Agreement,” this time bearing the typed name of co-defendant
Jennifer Neuhaus, followed by illegible initials. App. at 64a

4

17
Agreement, for itself, alone, could be involuntarily
extended over Petitioner Buis as well. Even though,
the evidence showed, Petitioner’s own alleged Ex. D
guaranty had not been signed and had no forum
consent clause itself. And, Buis testified, that he had
not negotiated the Ex. A agreement, which says it is
between Backwoods and QuarterSpot, whose forum
consent clause was not cross-referenced in the Ex. D
guaranty document.
D.

Trial Court Judgment, denying the Motion to
Quash.

On that record, the trial court, in its bench
ruling of June 26, 2020, still accepted Plaintiff’s legal
argument on personal jurisdiction. The transcript
shows the following dialogue at the very end of the
evidentiary hearing that day (Tr. at 27:12 – 28:12,
which transcript was filed with the Supreme Court of
Virginia below as part of a Document Appendix which
accompanied the Petition For Appeal):
Mr. Tatge [Petitioner’s Counsel]: And
we submit, Your Honor, for all the
reasons that we argued that the Court
does lack specific – either general or
specific jurisdiction over my client, and,
Your Honor, that we would ask that in
view thereof that the Court go ahead and
just grant Mr. Buis’ Motion to Dismiss
and the plaintiff can have a second shot
if it wants down in Texas.
The Court: All right. The Court in this
case is going to deny the motion.

18
Ms. Powell [Plaintiff’s counsel]: Thank
You, Your Honor.
The Court: All right. Please prepare an
order to that effect.
Mr. Tatge: Your Honor, were there – can
I ask were there reasons why the Court
denied the motion?
The Court: I believe that in this case
these two documents can be read
together.
Mr. Tatge: All right. Thank you, Your
Honor.
The Court: Yes sir.
Ms. Powell: Thank you, Your Honor.
(Whereupon, at 12:10 p.m., the taking of
the instant hearing ceased.)
On July 14, 2020, the trial court entered its
associated judgment denying Petitioner’s Motion to
Quash.
E.

Certification of Interlocutory Appeal

To its great credit, the Circuit Court, on
Petitioner’s motion of July 30, 2020, took the unusual
step of certifying an interlocutory appeal to the
Supreme Court of Virginia from its July 14, 2020,
judgment that denied the Motion to Quash. The
Certification of Interlocutory Appeal dated August 14,
2020, [App. at 2a-4a] acknowledged, among other
things, that:

19
x

there were substantial grounds for
differences of opinion on whether
personal jurisdiction existed or not
over the Petitioner.

x

no controlling precedent on point
existed in the decisions of the
Supreme Court of Virginia or the
Court of Appeals of Virginia and

x

that a different ruling on appeal,
were the Petition For Appeal granted
by the Supreme Court of Virginia and
thereafter, following briefing and
argument, if the trial court were then
reversed, would be dispositive of a
material portion of the litigation
pending in the trial court. Here,
Petitioner
would
have
been
dismissed from litigating further in
Virginia.5

Petitioner was and is very grateful for that
opportunity from the trial court to appeal.
F.

Supreme Court of Virginia Appeal

Petitioner argued to the Supreme Court of
Virginia, in his Petition For Appeal, that the Plaintiff
had the burden of proof below to show that
Counsel to co-defendant Jennifer Neuhaus did not enter his
appearance in the Circuit Court case below until September 2,
2020, several days after Mr. Buis had filed his Petition For
Appeal with the Supreme Court of Virginia, on August 28, 2020.
Co-defendant Backwoods, which the record below shows filed
Chapter 11 bankruptcy in Texas several years ago, has never
appeared in the Circuit Court action.

5

20
jurisdiction existed over him, under Iron City Sav.
Bank v. Isaacsen, 158 Va. 609, 630-31 (1932). Which
burden it did not meet below. While not cited there,
Eastern Technological Enterprises, Inc. v. Wilson &
Hayes, Inc., 46 Va. Cir. 558 (Circuit Court for the City
of Norfolk, July 10, 1997) likewise holds the burden of
proof to prove that jurisdiction exists over the
defendant is on the plaintiff under Virginia law. Slip
op. at *2, citing federal case law from this Court.
The Petition For Appeal urged that the
Complaint did not describe, and the evidence below
did not show, any conduct by Petitioner in or directed
at Virginia, let alone any evidence of a substantial
connection between any such conduct and Plaintiff’s
litigation claims below. So, Petitioner urged, the trial
court had erred in finding specific personal
jurisdiction over him.6
Petitioner advised the Virginia Supreme Court
that his documentary and testimonial evidence below,
against personal jurisdiction, had not been challenged
by the Plaintiff. Buis also argued on appeal the
Plaintiff had put on no evidence of its own below,
relying only on its claim that backdoor jurisdiction
existed over Buis via Countryside.
Furthermore, Petitioner argued, the trial court
had misapplied Countryside, and that Walden and
Burger King both barred his being bound to Virginia
Petitioner being a long-standing resident of Texas with no
Virginia business or assets, as his Affidavit admitted into
evidence at trial (App. at 66a-68a) also showed, Plaintiff never
argued that Petitioner had the “continuous and systematic”
contacts needed to support general jurisdiction over him in
Virginia.

6

21
jurisdiction only by the borrower’s own consent to a
forum selection clause in the Ex. A Borrower
Agreement, alone.
Moreover, that was not an
agreement he had not negotiated, signed, or seen,
which he was not party to. And that he had also
proved below he had not signed his putative Ex. D
guaranty, which itself had no forum selection clause
therein. Additionally, the Ex. D guaranty did not
cross reference the forum selection clause in the Ex.
A Borrower Agreement either. He could permissibly
be bound to Virginia jurisdiction only by his own
conduct, not solely by the actions of his co-defendant,
Backwoods, Petitioner maintained.
Petitioner again urged, on appeal, that
BioVeris be adopted as state law and illustrated, as
he had below, how its tests should be applied in the
present circumstances. Referencing, among other
things, a merger clause in the two-party Ex. A
Borrower Agreement which said it was the “complete
agreement’ of the two parties thereto, alone, as well
as language in the Ex. A agreement referring to
“either party”, not “any party,” showing, again, a
multi-party agreement with Petitioner was not
intended. Petitioner claimed also that because the
Ex. D guaranty referenced a few paragraphs, in
two other documents, this showed it was not intended
to be a “form” guaranty which picked up all
obligations under the Ex. A agreement, etc. Again
showing, applying BioVeris, that the Ex. A and Ex. D
agreements are, properly considered, two separate
agreements at law, not to be read together as one, as
the trial court did.
Tellingly, Plaintiff’s Brief in Opposition filed
with the Supreme Court of Virginia on September 18,

22
2020, in response to the Petition For Appeal, never
cited Walden or Burger King. Let alone distinguished
or applied them to the present circumstances.
On October 20, 2020, the writ panel heard 10
minutes of oral argument from Petitioner’s counsel,
alone, as the applicable Virginia appellate rules
provide, about why the Petition For Appeal should be
granted. While questions were invited by Petitioner
from the three Justice writ panel none were posed.
After the November 30, 2020, judgment that
declined the Petition For Appeal was entered,
Petitioner filed, on December 14, 2020, his Petition
For Rehearing thereof. The Petition For Rehearing
was itself denied on February 5, 2021.
This Petition For A Writ of Certiorari follows.
REASONS FOR GRANTING THE WRIT
I.

This Court clearly has jurisdiction, unless
it determines that the November 30, 2020,
judgment, which employed language historically
construed as being an adverse summary
adjudication on the merits, is no longer such
due to section “D” of Va. Code §8.01-670.1,
enacted July 1, 2020. That is not clearly
the case, so this Petition is filed.
A.

This Court has jurisdiction over final
judgments of a state’s highest court
on discrete federal questions, even if
actions are continuing against the
Petitioner and others on state law claims.

Even though litigation is now continuing below
on the various state law claims brought by the

23
Plaintiff against the Petitioner and his co-defendants,
this Court has jurisdiction under 28 U.S.C. §1257 to
hear this appeal from a final judgment on a federal
question from the Virginia’s highest court, if there is
a final judgment here. As seems likely. See e.g., Cox
Broadcasting Corp. v. Cohn, 420 U.S. 469, 477, 95
S. Ct. 1029, 1037, 43 L. Ed. 2d 328 (1975):
[a]s the cases have unfolded, the Court
has recurringly encountered situations
in which the highest court of a State has
finally determined the federal issues
present in a particular case, but in which
there are further proceedings in the
lower state courts to come. There are
now at least four categories of such cases
in which the Court has treated the
decision on the federal issue as a final
judgment for purposes of 28 U.S.C. 1257
and has taken jurisdiction without
awaiting the completion of the
additional proceedings anticipated in
the lower state courts. In most, if not all,
of the cases in these categories, these
additional proceedings would not
require the decision of other federal
questions that might also require review
by the Court at a later date, and
immediate rather than delayed review
would be the best way to avoid “the
mischief of economic waste and delayed
injustice,” Radio State WOW, Inc. v.
Johnson [328 U.S. 120, 65 S. Ct. 1475, 89
L. Ed. 2d 562 (1945)], supra at 1478, as
well as precipitate interference with
state litigation.,,,

24
In the first category are those cases in
which there are further proceedings –
even entire trials – yet to occur in the
state courts but where for one reason or
another the federal issue is conclusive….
Second, there are cases…in which the
federal issue, finally decided by the
highest court in the State, will survive
and require decision regardless of the
outcome of the future state-court
proceedings….
In the third category are those situations
where the federal claim has been
decided, with further proceedings on the
merits in the state courts to come, but in
which later review of the federal issue
cannot be had, whatever the ultimate
outcome of the case. Thus, in these
cases, if the party seeking interim
review ultimately prevails on the merits,
the federal issue will be mooted; if he
were to lose on the merits, however, the
governing state law would not permit
him again to present the federal claims
for review….
Lastly, there are those situations where
the federal issue has been finally decided
in the state courts with further
proceedings pending in which the party
seeking review here might prevail on the
merits on nonfederal grounds, thus
rendering unnecessary review of the
federal issue by this Court, and where

25
reversal of the state court on the federal
issue would be preclusive of any further
litigation on the relevant cause of action
rather than merely controlling the
nature and character of, or determining
the admissibility of evidence in, the state
proceedings still to come. In these
circumstances, if a refusal immediately
to review the state court decision might
seriously erode federal policy, the Court
has entertained and decided the federal
issue, which itself has been finally
determined by state courts for purposes
of the state litigation.
Petitioner respectfully submits that, unless
new subparagraph “D” of Va. Code §8.01-670.1
compels a different result, and it is not clear it does
(see below), this Court can hear and should grant this
petition, however the present situation is viewed.
Petitioner also cannot sue in federal court;
rather, any appeal from the judgment of the Supreme
Court of Virginia must be to this Court. See District
of Columbia Court of Appeals v. Feldman, 460 U.S.
462, 476, 103 S. Ct. 1303, 460 L. Ed. 2d 462 (1983).
B.

Virginia case law to date has treated
denial of a Petition For Appeal by
the Supreme Court of Virginia as a
summary adjudication on the merits.

Historically, Virginia courts have treated
denial of a Petition for Appeal by the Supreme Court
of Virginia as an (adverse) final summary
adjudication of the dispute in question on its merits.

26
See e.g., Canslor v. Clarke, No. 2:13-cv-116, 2014 WL
423097 (E.D. Va. Aug. 25, 2014), slip op. at *7:
[t]he Supreme Court of Virginia
summarily refused Canslor’s appeal of
that dismissal stating, “the Court is of
the opinion there is no reversible error in
the judgment complained of.”
This
constitutes an “adjudication on the
merits.”….see also Renoir v. Virginia,
No. 7:99-cv-580, 2001 WL 34801301 at
*8 n.7 (W.D. Va. July 31, 2001) (holding
Virginia Supreme Court adjudicated
claim on the merits where it found “no
reversible error in the judgment
complained of.”).
Thus, this Court has jurisdiction to consider
the present petition from the judgment rendered by
the Supreme Court of Virginia of November 30, 2020,
for which rehearing was denied on February 5, 2021,
as a “final order” under 28 U.S.C. §1257, unless Va.
Code §8.01-670.1(D), enacted July 1, 2020, compels a
different result. It is not clear that it does. Before
that can be addressed some brief background on the
structure of Virginia’s appellate court system follows.
C.

Expansion of the civil jurisdiction of
the Court of Appeals of Virginia
effective January 1, 2022.

Until new legislation was enacted in Virginia
in March 2021, effective January 1, 2022, Virginia
was the only state in the Union which did not allow
appeals of right in civil cases from Orders like the
July 14, 2020, judgment at issue here. Rather, as

27
here, litigants can presently only file a Petition For
Appeal to the Supreme Court of Virginia.7
A commission to study the massive docket load
faced by an understandably overburdened Supreme
Court of Virginia, and the fact appeals there are not
of right, was established in 2020.8 In March 2021,
legislation was enacted expanding the number of
judges of the Court of Appeals of Virginia and
providing now for appeals of right, not merely be
permission of the Supreme Court of Virginia as under
present law, from trial court civil judgments such as
the July 14, 2020, judgment implicated here. The
effective date of this new legislation is January 1,
2022.
D.

Effects (or not) of Va. Code §8.01670.1(D) on whether the November 30,
2020, judgment of the Supreme Court
of Virginia is now a “final” order.

The Supreme Court of Virginia’s judgment of
November 30, 2020, rehearing denied, February 5,
2021, would, before July 1, 2020, clearly be a “final
order” which creates jurisdiction in this Court under
28 U.S.C. §1257, upon a timely petition for a writ. Cox
Broadcasting Corp. v. Cohn, supra. The question now
presented is whether Va. Code §8.01-670.1(D),
enacted effective July 1, 2020, might change that
result? This statute states, in relevant part:
Historically, it seems that only 20% or so of civil appeals to
the Supreme Court of Virginia have been accepted. See
https://virginia-appeals.com/a-quick-read-on-appellate-statistics/
#.YNTDqxGSmUk. This Court grants far less writs itself, say,
1-2% due to, again, understandable workload issues. Id.
7

Judicial Council of Virginia to Study Expansion of the Court of
Appeals’ Jurisdiction, Organized (www.normanthomaslaw.com)
8

28
D. The failure of a party to seek
interlocutory appeal under this section
shall not preclude review of the issue on
appeal from a final order. An order by
the appellate court denying review
under this section shall not preclude
review from a final order, unless the
order denying such interlocutory review
provides for such preclusion.
(emph. added)
It can be argued that the “plain meaning” of the
statute now means that the November 30, 2020,
judgment of the Virginia Supreme Court is no longer
a “final judgment,” as it clearly would be under
Virginia law before this statute was enacted, as there
is no language therein which expressly bars later
appeal, such as “and no further appeal can be taken”.
In which case this Court would lack jurisdiction to
consider a timely petition for a writ of certiorari under
28 U.S.C. §1257. If this Court so rules, this Petition
should be dismissed. Whereupon Petitioner will try
again to later raise his Constitution concerns before
the Court of Appeals of Virginia in 2022, once its civil
jurisdiction then expands, or possibly later. If need
be.
On the other hand, it can also be argued that
because the exact language of the Supreme Court of
Virginia’s November 30, 2020, judgment has already
been adjudged by Virginia courts to be a “final”
summary (adverse) adjudication of the subject appeal
on its merits, this necessarily means, even without
more, that the ruling already contains all the
language required to preclude further state court
appellate review and that the November 30, 2020

29
judgment in question is now final, on the merits,
even after enactment of §8.01-670.1(D). Unless, for
example, additional language had been added by the
Supreme Court of Virginia to the language it used
here, in the November 30, 2020 judgment, to say,
expressly, as part of the written judgment denying a
particular Petition For Appeal, that the Supreme
Court of Virginia’s denial of the interlocutory appeal
in question does not bar later appellate review of the
issue(s) presented in the subject appeal, after a final
order has been entered in the trial court adjudicating
all issues in the underlying case. There is no such
language in the November 30, 2020 judgment
expressly allowed later appeals after a final order is
entered here.
Moreover, the legislative history of §8.01670.1(D), provided to Petitioner on June 28, 2021, by
the Legislative Service of Virginia, a state agency,
suggests clause “D” was enacted to address
interlocutory appeals where the sovereign immunity
of the Commonwealth of Virginia, and that of other
state actors, employees and agencies, was at issue in
the trial court, and the impact of the Supreme Court
of Virginia’s denial of an interlocutory appeal in that
context. Rather than aimed at the situation presented
here.
The Executive Summary of an August 30, 2019,
Memorandum to John Keith, Chairman of the BoydGraves Conference, from the Committee on
Interlocutory Appeals, states, in relevant part:
[S]econd, Code §8.01-670.1 should be
amended to provide a more expeditious
appeal of an interlocutory order granting

30
or denying a plea of immunity…The
mechanism allows a faster decision by
the appellate court on the immunity
question which, in turn, will expedite
proceedings in the trial court. Unlike
the federal rule, under which the party
asserting immunity may pursue an
interlocutory appeal, the amendment
recommended here would allow either
party to seek appellate review of the trial
court’s immunity ruling.
Under the amendments proposed here,
appellate review of the interlocutory
appeal will not stay proceedings in the
trial court unless the trial court or the
appellate court otherwise provides. And
a decision by the appellate court denying
the interlocutory appeal will not preclude
review of the question on appeal from the
final order, unless the appellate court
otherwise provides.
Bacon-Graves Conf. Mem. at 1 (emph.
added).9

Presumably referring to the ultimate judgment by the trial
court in the case, after all issues and points of law therein have
been adjudicated. Yet, Virginia law shows that trial court
judgments before then can still sometimes be viewed as “final.”
See e.g., Samuel v. Samuel, Record Nos. 2501-01-2, 1417-02,
2004 WL 135895 (Va. Ct. App. Jan. 28, 2004) (wife’s appeal in a
domestic relations case was from a final order as to the issue of
the husband’s breach of a separation, support and property
division agreement, even though the trial court still needed to
decide the husband’s counterclaim.)
9

31
What is the “immunity question” which the
Boyd-Graves Conference was trying to address -- was
it immunity of a defendant who, like Petitioner below,
claims he is not subject to specific personal
jurisdiction, where his defense was rebuffed by the
Supreme Court of Virginia? Or something else? The
legislative history of the statute suggests the latter.
See the Boyd-Graves Conf. Mem. at 4:
In 2011, Senator Stanley introduced a
bill – S.B. 1381, https://tinyurl.com/
y6zv5qd2- to allow an interlocutory
appeal of “an order denying a plea of
sovereign immunity made by the
Commonwealth
or
any
agency,
instrumentality, political subdivision, or
agent or employee thereof.” The bill failed
in the Courts of Justice Committee. Our
committee reached out to Senator
Stanley, who did not recall significant
opposition to the bill. He indicated that
legislators may have been concerned the
appeal of the immunity issue might delay
proceedings in the trial court. He offered
that that would not be a problem with
our proposal, however, which provides
that an interlocutory appeal does not
automatically stay trial court proceedings.
(emph. added).

32
II.

The November 30, 2020, judgment of the
Supreme Court of Virginia represents an
unwarranted and dangerous expansion of
specific personal jurisdiction and conflicts with
several reported decisions of this Court.
S. Ct. Rule 10 supports accepting this Petition
For A Writ of Certiorari.

The Supreme Court of Virginia’s judgment of
November 30, 2020, which left the trial court’s
judgment of July 14, 2020, denying the Motion to
Quash in place, represents, like the opinion below, an
unwarranted, overly expansive view of specific
personal jurisdiction, beyond the permissible use and
boundaries of Walden, Burger King, and more
recently Ford Motor Company. There, __ U.S. ___,
141 S. Ct. 1017, 1024-25, 209 L. Ed. 2d 225 (2021),
this Court held that to find specific personal
jurisdiction:
The defendant, we have said, must take
“some act by which [it] purposefully
avails itself of the privilege of conducting
activities within the forum State. The
contacts must be the defendant’s own
choice and not “random, isolated, or
fortuitous.” They must show that the
defendant deliberately “reached out
beyond” its home—by, for example,
“exploi[ting] a market” in the forum
State or entering a contractual
relationship centered there. Yet even
then—because the defendant is not “at
home”—the forum State may exercise
jurisdiction in only certain cases. The
plaintiff’s claims, we have oft stated,

33
must arise out of or relate to the
defendant’s contacts” with the forum. Or
put just a bit differently, there must be
‘an affiliation between the forum and the
underlying controversy, principally, [an]
activity or an occurrence that takes
place in the forum State and is therefore
subject to the State’s regulation.’
(Internal punctuation modified; citations
omitted; emph. added in italics).
The uncontested evidence below at trial on
June 26, 2020, showed, without question of any
dispute over “jurisdictional facts” (Plaintiff having
raised no objections to Petitioner’s evidence) that
Petitioner had not signed, initialed or approved the
Ex. D guaranty bearing only his typed name. And that
he had also not negotiated Backwoods’ alleged loan
from QuarterSpot and knew nothing of it, nor of the
Ex. A Borrower Agreement. It also showed that
Petitioner’s alleged Ex. D guaranty lacked a forum
clause itself and did not cross reference the forum
selection clause in the Ex. A Borrower Agreement.
And the Plaintiff put on no evidence to show that the
Ex. D guaranty even clearly referenced the Ex. A
agreement at all.
Reading the Ex. A and the Ex. D documents as
one, given this evidence, at the misguided urging of
Plaintiff DLI, the trial court, and then on appeal the
Supreme Court of Virginia, did just what Walden,
Burger King, Ford Motor Company and other
decisions of this Court all say cannot be done --- treat
the Petitioner, an out-of-state defendant, as bound to
the jurisdiction of Virginia’s courts, a forum with

34
which he has no legally cognizable contacts himself
which could create jurisdiction, as nevertheless
subject to jurisdiction there. Not by virtue of his own
conduct, alone, but, improperly, based solely on the
acts of his co-defendant, Backwoods.
There was no proof that Petitioner signed
a guaranty agreement in Virginia. Nor that he
negotiated third-party loan contracts in Virginia, the
performance of which Petitioner personally later
guaranteed outside the forum, in Texas. There was
no evidence below that Buis himself had signed,
initialed or even knew of the Ex. D guaranty
document bearing his typed name. Here, his putative
Ex. D guaranty bore only his typed name and, was not
initialed or approved by the Petitioner. Which Ex. D
guaranty had no forum selection clause itself nor
cross referenced the Virginia forum selection consent
clause in the Ex. A Borrower Agreement either. The
evidence was the Ex. A document concerned a loan
which Petitioner had not negotiated. Nor did Plaintiff
present any proof that Petitioner sent numerous
emails or made many phone calls to Virginia on the
subject loan, or regarding any guaranty thereof. Or,
that he had sent signed guaranty documents into
the Commonwealth related to his corporate codefendant’s loan.
The trial court, nevertheless, extended
Countryside and found personal jurisdiction over the
Petitioner out of, in essence, thin air. And it was
summarily affirmed on appeal. Based on nothing
Petitioner did, but solely from his co-defendant’s
actions. This violates Walden, Burger King, and Ford
Motor Company.

35
DLI did not meet its burden of proof to show
personal jurisdiction over the Petitioner in Virginia,
nor even come close.
Under S. Ct. Rule 10 this Petition should be
granted.
III.

The November 30, 2020, judgment of the
Virginia Supreme Court, left in place on
February 5, 2021, was wrong. Law from other
states shows that.

A recent Georgia federal district court decision,
IOU Central, Inc. v. Big State Tire and Axle, Inc., No.
1:20-CV-200-MHC, 2020 WL 6588742 (N.D. Ga. Oct.
8, 2020), held the court there had no specific or
general personal jurisdiction over defendant Melissa
Kay Ebarb, a Kansas citizen (M. Ebarb). She had not
signed a loan guaranty, unlike her husband, who had.
Ms. Ebarb was sued in Georgia along with her spouse,
defendant Roy Lee Ebarb, also a Kansas citizen (R.
Ebarb). He had, on behalf of defendant Big State Tire
And Axle, Inc., a Kansas company (BTSA), submitted
a loan application to the plaintiff, IOU Central, Inc.,
in Georgia, and had guaranteed that loan. See slip
op. at *4:
IOU asserts that because M. Ebarb is a
co-debtor to the loan and that R&S and
RSS are alter-egos of R. Ebarb, they are
all jointly and severally liable…IOU
does not present any evidence to indicate
that M. Ebarb, R&S and RSS are parties
to the Note and Guaranty. In support
of their motion [to dismiss for lack
of jurisdiction] R. Ebarb and BSTA
presented the affidavit of R. Ebarb,

36
which contained Exhibit A – the Note and
Guaranty….Neither document contains
the name or signature of M. Ebarb, RSS
or R&S. IOU has not alleged any facts
that support a finding that M. Ebarb,
R&S or RSS transacted business in
Georgia. Accordingly, the Court finds
that IOU has failed to establish that M.
Ebarb, R&S or RSS transacted business
within the meaning of the first prong of
the Georgia long-arm statute.
(emph. added).
Here, there was, similarly, no evidence that
Petitioner ever signed his putative Ex. D guaranty,
which had no forum consent clause itself. Nor did
Plaintiff present evidence that Petitioner had
otherwise done business in or directed any conduct at
Virginia, let alone related to DLI’s litigation claims,
as alleged assignee of the QuarterSpot note.
This Court should grant the writ and remedy
this unfortunate situation.
IV.

This case presents an excellent opportunity
for this Court to clarify, nationally, the
permissible scope of specific personal
jurisdiction, in the context of an alleged
guarantor, and advance Virginia law.

The Court can make meaningful contributions
to the American public, across all 50 states, by
ratifying and clarifying that specific personal
jurisdiction does not exist over a defendant in the
factual circumstances of the Petitioner. This Court
has also not often addressed how, when and why

37
specific personal jurisdiction exist over a putative
guarantor. This is a good opportunity to give
guidance there too.
This action would help not only guarantors, but
other defendants also, down the road, nationwide,
and avoid them bearing the huge expenses of time,
money and worry that the Plaintiff has foisted on the
Petitioner here. By forcing him to unreasonably
litigate in a jurisdiction, Virginia, with which he has
no legally cognizable connections or activities
sufficient to create specific personal (or general)
jurisdiction over him there.
Finally, by ruling on whether and how Va.
Code §8.01-670.1(D) applies in the present situation
the Court can make an important contribution to the
development of Virginia law.
CONCLUSION
Plaintiff’s petition for a writ of certiorari should
be GRANTED.
July 1, 2021

Respectfully submitted,
C. AL BUIS
By Counsel to the Petitioner
David B. Tatge
Counsel of Record
DAVID B. TATGE, PLLC
13000 Grey Friars Place
Oak Hill, VA 20171
(703) 991-6987 ph.
(703) 639-4487 fax
dtatge@tatgelawpllc.com

APPENDIX

ia
APPENDIX TABLE OF CONTENTS
Page
Order of
The Supreme Court of Virginia
Re: Refusing the Petition for Appeal
entered November 30, 2020 ........................... 1a
Certification of Interlocutory Appeal of
The Circuit Court for Arlington County
entered August 14, 2020 ................................ 2a
Order of
The Circuit Court for Arlington County
Re: Denying Defendant’s Motion to Quash
Service and to Dismiss for Lack of Personal
Jurisdiction by Special Appearance
entered July 14, 2020..................................... 5a
Order of
The Supreme Court of Virginia
Re: Denying Petition for Rehearing
entered February 5, 2021 .............................. 7a
U.S. CONST. amend. XIV, § 1 .................................... 8a
Va. Code § 8.01-328.1 ............................................... 9a
Va. Code § 8.01-670.1 ............................................. 12a
28 U.S.C. § 1257(a) ................................................. 15a
Complaint,
With Exhibits,
filed March 27, 2019 .................................... 16a
Affidavit of C. Al Buis
dated February 29, 2020 .............................. 66a

iia
Excerpts of Transcript of Motion Hearing before
The Honorable William T. Newman, Jr.
on June 26, 2020 .......................................... 69a

1a
[ENTERED: November 30, 2020]
VIRGINIA:
In the Supreme Court of Virginia held at
the Supreme Court Building in the City of
Richmond on Monday the 30th day of November,
2020.
C. Al Buis,
against

Appellant.
Record No. 201082
Circuit Court No. CL19001027-00

DLI Assets Bravo, LLC,

Appellee,

From the Circuit Court of Arlington County
Upon review of the record in this case and
consideration of the argument submitted in support
of and in opposition to the granting of an appeal, the
Court is of the opinion there is no reversible error in
the judgment complained of. Accordingly, the Court
refuses the petition for appeal.
A Copy,
Teste:
Douglas B. Robelen, Clerk
By:

/s/
Deputy Clerk

2a
[ENTERED: August 14, 2020]
V I R G I N I A:
IN THE CIRCUIT COURT
FOR ARLINGTON COUNTY
DLI ASSETS BRAVO, LLC,

)
)
Plaintiff,
)
)
v.
)
Case No.
) CL19001027-00
BACKWOODS RETAIL, INC., et al. )
)
Defendant.
)
)
CERTIFICATION OF INTERLOCUTORY APPEAL
CAME THIS DAY before the Court the July 30,
2020 Motion And Petition, By Special Appearance, For
Certification of Interlocutory Appeal filed by
defendant Mr. C. Al Buis pursuant to Va. Code §8.01670.1 (the “Motion and Petition For Certification”).
UPON consideration thereof, any Opposition
thereto, and any briefs filed by the parties and
arguments thereafter, the Court FINDS that its
Order entered July 14, 2020, denying Defendant Buis’
February 20, 2020 Motion To Quash Service And To
Dismiss For Lack Of Personal Jurisdiction By Special
Appearance involves questions of law as to which:
1.

There is a substantial ground for
difference of opinion;

3a
2.

There is no clear, controlling precedent
on point in the decisions of the Supreme
Court of Virginia or the Court of Appeals
of Virginia;

3.

Determination of the issues raised in the
Motion and Petition For Certification
will be dispositive of a material aspect of
the proceeding currently pending before
the Court, and, moreover,

4.

FINDING it is the parties’ best interest
to seek and take an interlocutory appeal,

The Court hereby CERTIFIES an immediate
interlocutory appeal to the Virginia Supreme Court
from this Court’s Order entered July 14, 2020, which
denied Mr. Buis’ Motion To Quash Service And To
Dismiss For Lack Of Personal Jurisdiction By Special
Appearance.
Dated: August 14, 2020
/s/
Hon. William T. Newman, Jr.
Circuit Court Judge
I ASK FOR THIS:
/s/
David B. Tatge, VSB No. 26108
DAVID B. TATGE, PLLC
13000 Grey Friars Place
Oak Hill, VA 20171
(703) 991-6087
dtatge@tatgelawpllc.com
Counsel to Mr. C. Al Buis making a special
appearance to contest personal Jurisdiction, only

4a
SEEN and objected.
/s/
Lindsay B. Powell, Esq., VSB No. 87923
PARKER, SIMON & KOKOLIS
10400 Eaton Place, Suite 300
Fairfax, VA 22030
(703) 737-9797
lpowell@pskfirm.com
Counsel to the Plaintiff

5a
[ENTERED: July 14, 2020]
VIRGINIA: IN THE CIRCUIT COURT FOR
ARLINGTON COUNTY
DLI Assets Bravo, LLC

*
*
Plaintiff,
*
*
v.
*
Case No.:
*
CL19001027-00
Backwoods Retail, Inc., et al.
*
*
Defendant(s).
*
*************************************************
ORDER DENYING DEFENDANT’S MOTION
TO QUASH SERVICE AND TO DISMISS FOR
LACK OF PERSONAL JURSDICTION BY
SPECIAL APPEARANCE
THIS MATTER came before the Court on June
26, 2020, on the Motion to Quash Service and to
Dismiss for Lack of Personal Jurisdiction by Special
Appearance (“the Motion”) filed February 20, 2020, by
Defendant C. Al Buis (“Mr. Buis”).
UPON consideration of the Motion, the
opposition thereto, the record, the arguments of
counsel, and the testimony by phone of Mr. Buis,
appearing with his counsel, by special appearance, it
is hereby
ORDERED that the Motion is DENIED.
IT IS ORDERED
/s/

6a
Hon. William Newman
Circuit Court Judge
July 14, 2020
I ASK FOR THIS:
/s/
Lindsay B. Powell, Esq., #87923
Parker, Simon & Kokolis
10400 Eaton Place, Suite 300
Fairfax, Virginia 22030
(703) 737-9797
lpowell@pskfirm.com
Attorney for Plaintiff
SEEN AND OBJECTED TO,
without waiver of the argument that this Court lacks
personal jurisdiction over Defendant and Movant
C. Al Buis
/s/
David B. Tatge, Esq., #26108
David B. Tatge, PLLC
13000 Grey Friars Place
Oak Hill, VA 20171
(703) 991-6087
dtatge@tatgelawpllc.com
Counsel to Defendant and Movant Mr. C. Al Buis,
specially appearing to object to the jurisdiction of this
Court only.

7a
[ENTERED: February 5, 2021]
VIRGINIA:
In the Supreme Court of Virginia held at
the Supreme Court Building in the City of
Richmond on Friday the 5th day of February,
2021.
C. Al Buis,
against

Appellant,
Record No. 201082
Circuit Court No. CL19001027-00

DLI Assets Bravo, LLC,

Appellee.

Upon a Petition for Rehearing
On consideration of the petition of the
appellant to set aside the judgment rendered herein
on November 30, 2020 and grant a rehearing thereof,
the prayer of the said petition is denied.
A Copy,
Teste:
Douglas B. Robelen, Clerk
By:

/s/
Deputy Clerk

8a
U.S. CONST. amend. XIV, § 1
All persons born or naturalized in the United States,
and subject to the jurisdiction thereof, are citizens of
the United States and of the State wherein they
reside. No State shall make or enforce any law which
shall abridge the privileges or immunities of citizens
of the United States; nor shall any State deprive any
person of life, liberty, or property, without due process
of law; nor deny to any person within its jurisdiction
the equal protection of the laws.

9a
Code of Virginia
Title 8.01. Civil Remedies and Procedure
Chapter 9. Personal Jurisdiction in Certain Actions
§ 8.01-328.1. When personal jurisdiction over
person may be exercised
A. A court may exercise personal jurisdiction over a
person, who acts directly or by an agent, as to a cause
of action arising from the person’s:
1. Transacting any business in this Commonwealth;
2. Contracting to supply services or things in this
Commonwealth;
3. Causing tortious injury by an act or omission in this
Commonwealth;
4. Causing tortious injury in this Commonwealth by
an act or omission outside this Commonwealth if he
regularly does or solicits business, or engages in any
other persistent course of conduct, or derives
substantial revenue from goods used or consumed or
services rendered, in this Commonwealth;
5. Causing injury in this Commonwealth to any
person by breach of warranty expressly or impliedly
made in the sale of goods outside this Commonwealth
when he might reasonably have expected such person
to use, consume, or be affected by the goods in this
Commonwealth, provided that he also regularly does
or solicits business, or engages in any other persistent
course of conduct, or derives substantial revenue from
goods used or consumed or services rendered in this
Commonwealth;

10a
6. Having an interest in, using, or possessing real
property in this Commonwealth;
7. Contracting to insure any person, property, or risk
located within this Commonwealth at the time of
contracting;
8. Having (i) executed an agreement in this
Commonwealth which obligates the person to pay
spousal support or child support to a domiciliary of
this Commonwealth, or to a person who has satisfied
the residency requirements in suits for annulments or
divorce for members of the armed forces or civilian
employees of the United States, including foreign
service officers, pursuant to § 20-97, provided that
proof of service of process on a nonresident party is
made by a law-enforcement officer or other person
authorized to serve process in the jurisdiction where
the nonresident party is located; (ii) been ordered to
pay spousal support or child support pursuant to an
order entered by any court of competent jurisdiction
in this Commonwealth having in personam
jurisdiction over such person; or (iii) shown by
personal conduct in this Commonwealth, as alleged
by affidavit, that the person conceived or fathered a
child in this Commonwealth;
9. Having maintained within this Commonwealth a
matrimonial domicile at the time of separation of the
parties upon which grounds for divorce or separate
maintenance is based, or at the time a cause of action
arose for divorce or separate maintenance or at the
time of commencement of such suit, if the other party
to the matrimonial relationship resides herein; or

11a
10. Having incurred a liability for taxes, fines,
penalties, interest, or other charges to any political
subdivision of the Commonwealth.
Jurisdiction in subdivision 9 is valid only upon proof
of service of process pursuant to § 8.01-296 on the
nonresident party by a person authorized under the
provisions of § 8.01-320. Jurisdiction under clause (iii)
of subdivision 8 is valid only upon proof of personal
service on a nonresident pursuant to § 8.01-320.
B. Using a computer or computer network located in
the Commonwealth shall constitute an act in the
Commonwealth. For purposes of this subsection,
“use” and “computer network” shall have the same
meanings as those contained in § 18.2-152.2.
C. When jurisdiction over a person is based solely
upon this section, only a cause of action arising from
acts enumerated in this section may be asserted
against him; however, nothing contained in this
chapter shall limit, restrict, or otherwise affect the
jurisdiction of any court of this Commonwealth over
foreign corporations that are subject to service of
process pursuant to the provisions of any other
statute.
Code 1950, § 8-81.2; 1964, c. 331; 1977, c. 617; 1978,
c. 132; 1981, c. 6; 1982, c. 313; 1983, c. 428; 1984, c.
609; 1986, c. 275; 1987, c. 594; 1988, cc. 866, 878;
1992, c. 571; 1999, cc. 886, 904, 905; 2001, c. 221;2007,
c. 533;2009, c. 582;2017, c. 480.
The chapters of the acts of assembly referenced in the
historical citation at the end of this section(s) may not
constitute a comprehensive list of such chapters and
may exclude chapters whose provisions have expired.

12a
Code of Virginia
Title 8.01. Civil Remedies and Procedure
Chapter 26. Appeals to the Supreme Court
Article 2. When Granted
§ 8.01-670.1. Appeal of interlocutory orders and
decrees by permission; immunity
A. When, prior to the commencement of trial, the
circuit court has entered in any pending civil action,
except any matters appealable to the Court of Appeals
pursuant to § 17.1-405, an order or decree that is not
otherwise appealable, any party may file in the circuit
court a motion requesting that the circuit court certify
such order or decree for interlocutory appeal.
The motion shall include a concise analysis of the
statutes, rules, or cases believed to be determinative
of the issues and request that the court certify in
writing that the order or decree involves a question of
law as to which (i) there is substantial ground for
difference of opinion, (ii) there is no clear, controlling
precedent on point in the decisions of the Supreme
Court of Virginia or the Court of Appeals of Virginia,
(iii) determination of the issues will be dispositive of
a material aspect of the proceeding currently pending
before the court, and (iv) it is in the parties’ best
interest to seek an interlocutory appeal. If the request
for certification is opposed by any party, the parties
may brief the motion in accordance with the Rules of
the Supreme Court of Virginia.
Within 15 days of the entry of an order by the circuit
court granting such certification, a petition for appeal
may be filed with the appellate court that would have
jurisdiction in an appeal from a final judgment in the

13a
proceeding. If the appellate court determines that the
certification by the circuit court has sufficient merit,
it may, in its discretion, permit an appeal to be taken
from the interlocutory order or decree and shall notify
the certifying circuit court and counsel for the parties
of its decision.
The consideration of any petition and appeal by the
appellate court shall be in accordance with the
applicable provisions of the Rules of the Supreme
Court of Virginia and shall not take precedence on the
docket unless the court so orders.
B. When, prior to the commencement of trial, the
circuit court has entered in any pending civil action
an order granting or denying a plea of sovereign,
absolute, or qualified immunity that, if granted,
would immunize the movant from compulsory
participation in the proceeding, the order is eligible
for immediate appellate review. Any person aggrieved
by such order may, within 15 days of the entry of such
order, file a petition for review with the appropriate
appellate court in accordance with the procedures set
forth in § 8.01-626.
C. No petitions or appeals under this section shall
stay proceedings in the circuit court unless (i) the
petition or appeal could be dispositive of the entire
civil action or (ii) there exists good cause, other than
the pending petition or appeal, to stay the
proceedings.
D. The failure of a party to seek interlocutory review
under this section shall not preclude review of the
issue on appeal from a final order. An order by the
appellate court denying interlocutory review under
this section shall not preclude review of the issue on

14a
appeal from a final order, unless the order denying
such interlocutory review provides for such
preclusion.
2002, c. 107;2020, c. 907.
The chapters of the acts of assembly referenced in the
historical citation at the end of this section(s) may not
constitute a comprehensive list of such chapters and
may exclude chapters whose provisions have expired.

15a
28 U.S.C. § 1257. State courts; certiorari
(a) Final judgments or decrees rendered by the
highest court of a State in which a decision could be
had, may be reviewed by the Supreme Court by writ
of certiorari where the validity of a treaty or statute
of the United States is drawn in question or where the
validity of a statute of any State is drawn in question
on the ground of its being repugnant to the
Constitution, treaties, or laws of the United States, or
where any title, right, privilege, or immunity is
specially set up or claimed under the Constitution or
the treaties or statutes of, or any commission held or
authority exercised under, the United States.

16a
VIRGINIA: IN THE CIRCUIT COURT FOR
ARLINGTON COUNTY
DLI Assets Bravo, LLC
550 North Brand Boulevard
20th Floor, Suite 2000
Glendale, CA 91203

*
*
*
*
*
Plaintiff,
*
*
vs.
* Case No.: 19-1027
*
Backwoods Retail, Inc.
*
33000 N. Interstate Hwy,
*
35 Ste. 149
*
Austin, TX 78705
*
RECEIVED
* MAR 27 2019
SERVE ON:
*
c/o Jennifer A. Mull,
* PAUL FERGUSON,
Resident Agent
*
CLERK
33000 N. Interstate Hwy,* Arlington County
35 Ste. 149
*
Circuit Court
Austin, TX 78705
* by ________________
*
Deputy Clerk
And
*
*
Jennifer Neuhaus
*
4211 Camacho St.
*
Austin, TX 78723
*
*
And
*
*
C. Al Buis
*
4951 Overton Woods Ct.
*

17a
Fort Worth, TX 76109

*
*
Defendant(s).
*
*************************************************
COMPLAINT
Plaintiff, DLI Assets Bravo, LLC (“DLI”) by
and through its counsel Chris J. Keegan, Esq. and
Parker, Simon & Kokolis, LLC, brings this action for
breach of contract against Defendants Backwoods
Retail, Inc., and Jennifer Neuhaus and C. Al Buis,
jointly and severally, and for its complaint, states as
follows:
Jurisdiction and Venue
1.
Plaintiff DLI is a California limited
liability company with its principal place of business
located in the State of California.
2.
Defendant Backwoods Retail, Inc. is a
corporation with its principal place of business
located in Texas.
3.
Defendant Jennifer Neuhaus (“Neuhaus”)
is an individual who resides in the State of Texas.
4.
Defendant C. Al Buis (“Buis”) is an
individual who resides in the State of Texas.
5.
Jurisdiction and venue are proper in this
Court because the contract that is the subject of this
litigation contains jurisdictional and choice of law
clauses, requiring any and all claims arising under
the contract be brought in Virginia.

18a
COUNT I
Breach of Contract Pursuant to Va. Code
§ 59.1-507.1 against Backwoods Retail, Inc.
6.
On or about July 28, 2016, Backwoods
Retail, Inc., borrowed money from Quarterspot, Inc.,
a Delaware corporation and executed a Borrower
Agreement and Non-Negotiable Promissory Note, by
and through Jennifer Neuhaus and C. Al Buis, Agent
of Backwoods Retail, Inc., in the principal amount of
$150,000.00 (the “Borrower Agreement” and “Note”).
A copy of the Borrower Agreement and Note are
collectively attached hereto as Exhibit A.
7.
Under the Note, Backwoods Retail, Inc.
promised to make daily (business days) payments of
Four Hundred Ninety Six Dollars and Fifty Cents
($496.50) beginning on August 1, 2016 with a final
payment due on January 23, 2018. See the Note
contained in Exhibit A.
8.
The Note contains a covenant to pay all
principal, interest, and any other sums that may be
due and payable under the Note. See the Note
contained in Exhibit A at page 1-2.
9.
Pursuant to the Note, “interest is
calculated on a daily basis upon the unpaid balance
with each day representing 1/360th of a year.” See the
Note contained in Exhibit A at page 1.
10.
The total interest to be paid over the
term of the Note is Thirty Five Thousand Seven
Hundred Nineteen Dollars and Eighty Four Cents
($35,719.84). See the Note contained in Exhibit A at
page 1.

19a
11.
Plaintiff is the holder of the Note as a
result of an Allonge to Promissory Note dated August
24, 2017 assigning the Note to Direct Lending Income
Fund, LP, and a subsequent Allonge to Promissory
Note dated August 24, 2017, assigning and
transferring the Note from Direct Lending Income
Fund, LP to DLI. A copy of the Allonges are
collectively attached hereto as Exhibit B.
12.
As holder of the Note, DLI is entitled to
all amounts due and unpaid under the Note.
13.
Backwoods Retail, Inc. defaulted under
the terms of the Note by failing to pay-off the loan at
maturity.
14.
The Borrower Agreement and Note
provide that upon default, Backwoods Retail, Inc.
shall be liable to Plaintiff for all of its costs of
collection, including reasonable attorney’s fees and
court costs. See the Borrower Agreement at Section
23 and 24, and the Note in Exhibit A.
15.
As of February 26, 2019, the unpaid
principal balance of One Hundred Twenty Seven
Thousand Two Hundred Ninety Seven Dollars and
Fifteen Cents ($127,297.15) remains unpaid and
outstanding. See Statement of Debt attached hereto
as Exhibit C.
16.
As of February 26, 2019, interest has
accrued in the amount of Eighty Seven Thousand One
Hundred Twenty Nine Dollars and Seventy Four
Cents ($87,129.74), and continues to accrue at the
rate of $103.23 per day.
WHEREFORE, Plaintiff DLI prays as follows:

20a
A)
That this Court enter a Judgment in
favor of DLI against Defendant Backwoods Retail,
Inc.; and
B)
That Judgment be in the amount of One
Hundred Twenty Seven Thousand Two Hundred
Ninety
Seven
Dollars
and
Fifteen
Cents
($127,297.15); and
C)
That the Judgment include interest in
the amount of Eighty Seven Thousand One Hundred
Twenty Nine Dollars and Seventy Four Cents
($87,129.74), plus additional interest at the rate of
$103.23 per day from February 27, 2019 through the
date of judgment; and
D)
That the Judgment include postjudgment interest at the Note rate from the date of
Judgment until paid in full; and
E)
That the Judgment include reasonable
attorney’s fees plus the costs associated with
collecting the delinquent payments due under the
Borrower Agreement and Note; and
F)
That the Court grant Plaintiff such other
and further relief that it deems just and appropriate.
COUNT II
Breach of Contract Pursuant to Va. Code
§ 59.1-507.1 against Jennifer Neuhaus
17.
Paragraphs 1-15 are incorporated herein
by reference.
18.
On or about July 28, 2016, Defendant
Jennifer Neuhaus, Agent of Backwoods Retail,
Inc. (“Neuhaus”), executed a Borrower Validity

21a
Agreement (“Validity Agreement”). A copy of the
Validity Agreement is attached hereto as Exhibit D.
19.
Under the Validity Agreement, Neuhaus
agreed to indemnify and hold harmless QuarterSpot
against any loss which QuarterSpot may suffer as a
result of any breach of Sections 18 and 19 of the
Borrower Agreement. See Exhibit D.
20.
The
Validity
Agreement
further
provides, “the undersigned further agrees to make
Indemnity Payments on demand without requiring
[the holder] to enforce indemnity payments against
[Backwoods Retail, Inc.].” See Exhibit D.
21.
Pursuant to the Validity Agreement,
Neuhaus is personally liable for all sums due under
the Note as a result of Backwoods Retail, Inc.’s default
for failing to pay-off the loan at maturity.
22.
As of February 26, 2019, the unpaid
principal balance of One Hundred Twenty Seven
Thousand Two Hundred Ninety Seven Dollars and
Fifteen Cents ($127,297.15) remains unpaid and
outstanding. See Statement of Debt attached hereto
as Exhibit C.
23.
As of February 26, 2019, interest has
accrued in the amount of Eighty Seven Thousand One
Hundred Twenty Nine Dollars and Seventy Four
Cents ($87,129.74) and continues to accrue at the rate
of $103.23 per day.
WHEREFORE, Plaintiff DLI prays as follows:
A)
That this Court enter a Judgment in
favor of DLI against Defendant Jennifer Neuhaus;
and

22a
B)
That Judgment be in the amount of One
Hundred Twenty Seven Thousand Two Hundred
Ninety
Seven
Dollars
and
Fifteen
Cents
($127,297.15); and
C)
That the Judgment include interest in
the amount of Eighty Seven Thousand One Hundred
Twenty Nine Dollars and Seventy Four Cents
($87,129.74), plus additional interest at the rate of
$103.23 per day from February 27, 2019 through the
date of judgment; and
D)
That the Judgment include postjudgment interest at the Note rate from the date of
Judgment until paid in full; and
E)
That the Judgment include reasonable
attorney’s fees plus the costs associated with filing
this action; and
F)
That the Court grant Plaintiff such other
and further relief that it deems just and appropriate.
COUNT III
Breach of Contract Pursuant to Va. Code
§ 59.1-507.1 against C. Al Buis
24.
Paragraphs 1-15 are incorporated herein
by reference.
25.
On or about July 28, 2016, Defendant C.
Al Buis, Agent of Backwoods Retail, Inc. (“Buis”),
executed a Borrower Validity Agreement (“Validity
Agreement”). A copy of the Validity Agreement is
attached hereto as Exhibit D.
26.
Under the Validity Agreement, Buis
agreed to indemnify and hold harmless QuarterSpot

23a
against any loss which QuarterSpot may suffer as a
result of any breach of Sections 18 and 19 of the
Borrower Agreement. See Exhibit D.
27.
The
Validity
Agreement
further
provides, “the undersigned further agrees to make
Indemnity Payments on demand, without requiring
[the holder] to enforce indemnity payments against
[Backwoods Retail, Inc.].” See Exhibit D.
28.
Pursuant to the Validity Agreement,
Buis is personally liable for all sums due under the
Note as a result of Backwoods Retail, Inc.’s default for
failing to pay-off the loan at maturity.
29.
As of February 26, 2019, the unpaid
principal balance of One Hundred Twenty Seven
Thousand Two Hundred Ninety Seven Dollars and
Fifteen Cents ($127,297.15) remains unpaid and
outstanding. See Statement of Debt attached hereto
as Exhibit C.
30.
As of February 26, 2019, interest has
accrued in the amount of Eighty Seven Thousand One
Hundred Twenty Nine Dollars and Seventy Four
Cents ($87,129.74) and continues to accrue at the rate
of $103.23 per day.
WHEREFORE, Plaintiff DLI prays as follows:
G)
That this Court enter a Judgment in
favor of DLI against Defendant C. Al Buis; and
H)
That Judgment be in the amount of
One Hundred Twenty Seven Thousand Two
Hundred Ninety Seven Dollars and Fifteen Cents
($127,297.15); and

24a
I)
That the Judgment include interest in
the amount of Eighty Seven Thousand One Hundred
Twenty Nine Dollars and Seventy Four Cents
($87,129.74), plus additional interest at the rate of
$103.23 per day from February 27, 2019 through the
date of judgment; and
J)
That the Judgment include postjudgment interest at the Note rate from the date of
Judgment until paid in full; and
K)
That the Judgment include reasonable
attorney’s fees plus the costs associated with filing
this action; and
L)
That the Court grant Plaintiff such other
and further relief that it deems just and appropriate.
Respectfully submitted,
/s/
Chris J. Keegan, Esq. #93594
Parker, Simon & Kokolis, LLC
110 North Washington St., Suite 500
Rockville, Maryland 20850
(301) 656-5775
Attorney for Plaintiff

25a
VIRGINIA: IN THE CIRCUIT COURT FOR
ARLINGTON COUNTY
DLI Assets Bravo, LLC

*
*
Plaintiff,
*
*
vs.
*
Case No.:
*
Backwoods Retail, Inc., et al.
*
*
Defendant(s).
*
*************************************************
MILITARY AFFIDAVIT
State of California:
County of Los Angeles: ss.
I HEREBY CERTIFY that, before me, the
subscriber, a Notary Public of said State and County,
personally appeared Graciela Burrola, Asset Manager
of DLI Assets Bravo, LLC, who made oath in due form
of law to the best of his/her knowledge, information
and belief, in his/her capacity as an authorized agent,
pursuant to the Servicemembers Civil Relief Act of
2003, 50 App. U.S.C.A. 501 et. Seq. that:
1.
Said Defendant(s) is/are not presently in
the active military service of the United States;
2.
Said Defendant(s) is/are not in the military
service of any nation allied with the United States;
3.
Said Defendant(s) has/have not been
ordered to report for induction under the Selective
Training and Service Act of 1940 as amended;

26a
4.
Said Defendant(s) is/are not a member(s)
of the enlisted reserve corps who have been ordered to
report for military service;
5.
Said Defendant(s) is/are not entitled to
immunity from foreclosure under the provisions of the
Servicemembers Civil Relief Act of 2003;
6.
Said Defendant(s) does not live in or
about a military installation or work for commercial
airline as a pilot.
[SIGNATURE LINE AND NOTARY ATTESTATION
ON FOLLOWING PAGE]
DLI Assets Bravo, LLC
/s/
By: Graciela Burrola
Title: Asset Manager
A notary public or other officer completing this
certificate verifies only the identity of the individual
who signed the document to which this certificate is
attached, and not the truthfulness, accuracy or
validity of that document.
State of California:
County of Los Angeles:
Subscribed and sworn to before me on this 27th day
of February 2019, by Graciela Burrola Proved to me
on the basis of satisfactory evidence to be the person
who appeared before me.
(Seal)

Signature

/s/

27a
PLAINTIFF’S
EXHIBIT
A
quarterspot
BORROWER AGREEMENT

PY

This Borrower Agreement (the “Agreement”) is made
by and between QuarterSpot, a Delaware co
ccorporation
(hereinafter “QuarterSpot”, “Lender”, “we”,
“us”, and
we”
e”,, “u
“our”) and BACKWOODS RETAIL INC
, the llegal
entity that executes this Agreement
ement orr oon who
whose
behalf this Agreement is executed
uted ((hereinafter,
hereinafter “you”
hereinafter,
“your” or “ Borrower”).
WHEREAS, QuarterSpot
of
ott is the
t owner
wne and operator
oper
the website located
ed at www.quarterspot.com
ww .quarte
www
(hereinafter the “Website”);
Website””);
Website

C

O

WHEREAS, you
from QuarterSpot
u wish
w
to borrow fro
fr
now or in the
future,
acceptance means that
he future
tur , and your
ur acce
a
you agree
repay all loans that you
ee to borrow and repa
rep
obtain from us in accordance with the terms of this
Agreement;
reement
me ;
WHEREAS,
REAS, you agree
agr to our Privacy Policy, Terms of
Use, agree
ree to transact
tran
with us electronically, and
agree to resolve
solve
l disputes
d
through binding arbitration.
NOW THEREFORE, in consideration of the
covenants,
agreements,
representations
and
warranties hereinafter set forth, and for other good
and valuable consideration, receipt of which is hereby
acknowledged, it is agreed as follows:
SECTION 1 - APPLICATION Businesses must
apply to receive loans from QuarterSpot and pass our

28a
eligibility requirements to qualify. During the
application process, and as part of subsequent
requests for loans, business must submit loans
requests (“Loan Request”). We restrict business
registration to businesses only as individuals are not
eligible to borrow from QuarterSpot. Businesses are
defined as corporations, limited liability corporations,
professional corporations, s-corporations, limited
sh
partnerships and limited liability partnerships.

O

PY

y submittin
bm
SECTION 2 - LOAN REQUESTS By
submitting
one
or more loan requests, you are applying
g to
t receive
rece
loans in amounts and with terms
mss equivalen
equivalent to your
requests. We reserve the right to verify an
any
information that you submit
mit
it in connection with y
your
loan request by requiring
you to produce
quiri
quiring
pr
documentation or other
ther proof or by oobtaining
information from third
hird parties.
parties. If for any reason you
do not qualify orr you later cease to qualify
to borrow
qua
from QuarterSpot,
your loan request
Spot,
ot, we may
y cancel y
in our sole discretion.
eti

C

SECTION
LIMIT We will set a
ON 4 - CREDIT L
maximum
imum
mum amount (“Credit
(“Credi
“C d Limit”) that you may
borrow
QuarterSpot
at any given time that you
row
w from
f
QuarterSpo
rter
igible
gible to borrower
borrowe
row from us. You may request one
are eligible
or more
e loans in b
between $5,000 and your Credit
Limit.
SECTION 4 - TERM We will provide one or more
terms that you may choose for your loans, at any
given time that you are eligible to borrower from us.
The term of your loan represents the maximum
number of calendar days that it may be due and
owing, subject to any prepayment rights set forth in
this Agreement.

29a
SECTION 5 - LOAN LISTING We will post a loan
listing with terms corresponding to your loan request
on our Website. The loan listing will expire 120 hours
from its posting date, however we reserve the right to
cancel loan listings at any time within our complete
discretion. Our posting of a loan listing does not
guarantee that your loan request will be funded.

O

PY

SECTION 6 - INVESTORS Investors are registered
lo listings
QuarterSpot users who may review yourr loan
n orr tthe entire
and choose to either fund a portion
amount of your loan by making a loan
an to QuarterSpot.
Qua
QuarterSp
YOU ACKNOWLEDGE THAT
T AN INVE
INVESTOR’
INVESTOR’S
COMMITMENT TO FUND A PORTION OR THE
ENTIRE AMOUNT OF YOUR
UR LOAN BY MAKIN
MAKING A
LOAN TO QUARTERSPOT
POT
OT CONFERS
CONFER NO RIGHTS
RIG
TO YOU. YOU FURTHER
HER
R ACKNOW
ACKNOWLEDGE THAT,
IF YOUR LOAN IS SUCCESSFULLLY
FUNDED,
SUCCESSF
AS DEFINED IN
N SECTION 7, (A) QUARTERSPOT
QU
WILL USE THE
HE
E FUNDS TO MAKE
MAK
MAK A LOAN TO
YOU AND
IS THE SOLE
D (B)) QUARTERSPOT
QUARTERSP
MAKER AND CREDITOR OF Y
YOUR LOAN.

C

SECTION
SUCCESSFUL
FUNDING Your loan
CTION
TIO 7 - SUCCESSF
CCESSF
willl bee considered su
successfully
funded if:
succes
a. 100% of the loan is funded before the
expirati
expiration of the loan listing;
b. 50%
% of the loan or more is funded at the
expiration of the loan listing; or
c. At least $5,000 of the loan is funded at the
expiration of the loan listing, and you
choose to accept the lesser amount within 2
hours of expiration.

30a
Except as set forth in clause (c) above, in no event, will
QuafterSpot be obligated to notify you of the date
upon which your loan’may or will successfully fund.

PY

SECTION 8 - LOAN COMMITMENT SHOULD
YOUR LOAN BE SUCCESSFULLY FUNDED, YOU
COMMIT
TO
OBTAIN
A
LOAN
FROM
QUARTERSPOT ON THE TERMS SET FORTH IN
THIS AGREEMENT AND AUTHORIZE US TO
TAC
TACH
ISSUE A NOTE IN THE FORM ATTACHED
AS
EN YOU
Y
EXHIBIT A (A “NOTE”) BETWEEN
AND
QUARTERSPOT UNDER POWER
R OF ATTORN
AT
ATTORNEY
AS DESCRIBED BELOW. YOU
U HAVE NO RIGHT
ORIZATION AFTER
AFT
A
TO RESCIND THIS AUTHORIZATION
LOAN LISTING HAS BEEN
EN POSTED
POSTE EXCEPT
CEPT AS
SET FORTH IN SECTION
ION
ON 7 ABOVE.
ABOV QuarterSpot
Quarte
will maintain all Notes
successfully
es corresponding
orrespondin to suc
funded loans in electronic
ectronic form and shall
shal make all
such Notes available
able to you for review
revie on our Website.

C

O

SECTION 9 - LIMITED POWER
OF ATTORNEY
POW
As a condition
Agreement, each and every time
ition
tion to this Agreement
Agreemen
you submit
hereby grant us a
ubmit
bmit a loan request, you
y
limited
ted
d power of attorney and you hereby appoint
QuarterSpot
designees as your lawful and
arterSpot
terSpot and/or our d
agent and attorney-in-fact,
a
att
true agen
with full and
complete
e power of substitution and re-substitution,
for you and
d in
i your
yo name, stead and place, in any and
all capacities, to execute and complete a Note with an
equivalent Loan Amount (defined in SECTION 12)
and terms to each such loan request, with the full
authority and power to perform and do each and every
thing and act necessary and requisite to be done in
connection with such power, as fully to all purposes
and intents as you could or might do in person
(“Power of Attorney”). This Power of Attorney is

31a

PY

limited to the purpose described herein and shall
automatically expire upon the earlier of (A) the
issuance and funding of your Note by QuarterSpot,
(B) failure of your loan listing to be successfully
funded, or (C) cancellation of your loan listing. By
contacting QuarterSpot as specified in this
Agreement, you may revoke this Power of Attorney at
any time before your loan has been posted. Once a
Note has been executed on your b
behalf by
fact,
act pu
QuarterSpot acting as your attorney-in-fact,
pursuant
med a valid and
to this Agreement, it shall be deemed
re
t
binding obligation of you. If you elect to revoke
the
Power of Attorney before we publish
blish
ish your loan listing
listing,
urther, in QuarterSpot
arterS
the Note will be cancelled. Further,
QuarterSpot’s
sole and unlimited discretion,
prohibited
tion,
ion, you may be prohib
from participating as a Borrower on our Web
Website in
the future.

C

O

SECTION 10 - LOAN DISBURSMEN
DISBURSMENT If your loan
DISBURSM
is successfully
y funded, you authorize
authoriz us to disburse
your loan proceeds
(“Disbursement
Amount”), by
eeds (“Disburs
(“Disbursem
electronicc transfer to
checking account,
to your business
busi
busin
as provided
Account Authorization form
ovided
vided in the Bank Acco
(Exhibit
hibit
bit B).
TION
ION 11 - PLAT
PLA
SECTION
PLATFORM FEE For each loan of
yours that
hatt is succes
ha
successfully funded, you agree to pay a
one-time non-ref
non-refundable platform fee in the amount
set forth in your loan request. This fee will be
deducted from your loan proceeds, so the
Disbursement Amount will be less than the full
amount of your issued loan (“Loan Amount”). You
hereby acknowledge that the platform fee will be
considered part of your Loan Amount, and is subject
to the accrual of interest. The platform fee consists of
a service fee for providing and operating the

32a
QuarterSpot loan platform, and may include an
acquisition fee to cover the costs incurred by
QuarterSpot for third parties arranging a loan
between QuarterSpot and the borrower.

PY

SECTION 12 - LOAN PAYMENT You authorize us
to initiate an electronic payment request to one or
more of your business payment accounts (individually
and collectively, as appropriate, your “Payment
or go
Account”) where you receive payments for
goods and
(“Cus
(“
services sold or provided by you (“Customer
Deposits”), for any amount due under your
ou loan in
accordance with the payment schedule
chedule
hedule of your
yo Not
Note
(“Payment Schedule”), as provided in the Bank
Account Authorization form
m (Exhibit B)

O

SECTION 13 - ALTERNATIVE
PAYMENT
TERNATIV
PAY
METHODS If you know of any reason that
would
t
preclude QuarterSpot
any payment
rSpot from obtain
obtaining a
due in accordance
ance
ce with the Payment
Paymen Schedule, then
you must promptly
sufficient funds to your
romptly
ptl restore suffici
su
Payment Account, make the missed
payment(s) by
m
electronic
nic transfer or, if offered,
offere by other means.

C

SECTION
14 - LOAN
SERVICING You
CTION
TIO
LO
acknowledge
agree
that QuarterSpot, its third
owledge
wledge and agre
ag
party agent(s), or assign(s) shall administer and
collect on
n your loans. We may, within our sole
discretion, delegate
servicing of or assign your loan to
ele
another party.
SECTION 15 - OTHER FEES
a. Returned Payment Fee: A Returned
Payment Fee in the amount of $25 is
assessed if an electronic payment is made
on your loan that is returned as unpaid,

33a
declined or dishonored for any reason. This
fee is immediately due and payable, and
may be collected using electronic transfers
initiated by us. You acknowledge that your
bank may charge a fee in addition to the
Returned Payment Fee and that bank fee is
the sole responsibility of the borrower.

PY

b. Late Fee: A Late Fee in the amount of $10
ym
yme
is assessed if an electronic payment
is not
o the
he Pa
received by us according to
Payment
Schedule. This fee is immediately
mediately
ely due and
payable, and may be collected
llected
lected in accordance
accordanc
ac
nd Section 1
13. The
with Section 12 and
maximum amountt of Late Fees that ma
may be
assessed per month
onth is
i $40.
40.

C

O

c. Wire Transfer
Wire Fee of
er Fee (optiona
(optional): A Wir
$30 will be assessed in order to receive a
wire transfer
Disbursement Amount.
ansfer of the Disbursem
Disbu
This fee will be deducted from the loan
proceeds.
acknowledge that the
roceeds.
ds. You hereby ack
Wire Transfer Fee will
wi be considered part of
the Loan Amount and is subject to the
interest. Additionally, a Wire
accrual of inte
intere
in the amount of $30 is
Transferr Fee
F
assessed if a wire transfer payment is made
by you in accordance with Section 13.

SECTION 16
6 - SECURITY INTEREST In the event
a Note is executed on your behalf under power of
attorney, you hereby agree to grant QuarterSpot a
continuing security interest in and to the “Collateral”
as described below to secure payment and
performance of the Note. The Collateral includes
the following property that you now own or shall
acquire or create immediately upon the acquisition or

34a

C

O

PY

creation thereof: (a) all tangible and intangible
property of Borrower, including, all accounts, deposit
accounts, chattel paper, documents, equipment, general
intangibles, instruments, inventory, investment
property (including certificated and uncertificated
securities, securities accounts, securities entitlements,
commodity contracts and commodity accounts), letter
of credit rights, commercial tort claims and asextracted collateral (as those terms are defined in
ode
de (“UCC”)
((“U
Article 9 of the Uniform Commercial Code
in
ate of Virg
effect from time-to-time in the State
Virginia);
s,, trademar
tra
(b) all patents, patent applications,
trademarks, trade
names, service marks, logos, copyrights,
pyrights, and
an other
rs, and all registration
istrat
sources of business identifiers,
registrations,
recordings and applications
nss with the U.S. Patent and
Trademark Office (“USPTO”)
Copyright
SPTO”)
PTO and U.S. Cop
Office and all renewals,
ewals, reissues and extensions
e
thereof (collectively
ly “IP”), together
togethe with any written
agreement granting
any IP; and
nting
ting any right to use
u
(c) all accessions,
parts,
sions,
ns, attachments,
ments, accessories,
a
ac
supplies and replacements,
products,
proceeds and
placements, pr
prod
collections
the items described in
ns with respect to tth
(a) and
are defined in Article
nd
d (b) above, as those terms
ter
9 of the UCC and all records and data relating
thereto.
eto.
o.
SECTION
FINANCING STATEMENTS In the
ON 17 - FIN
event a loan
n is issued to you, you hereby agree that
QuarterSpot and/or a designated representative may
file any financing statement, lien entry form or other
document we require in order to perfect, amend or
continue our security interest in the Collateral and
you agree to cooperate with us and/or our designated
representative as may be reasonably necessary to
accomplish said filing and to perfect our security
interest in the Collateral. In this Agreement

35a
“designated representative” means any entity or
individual that is designated by us to serve in such
capacity.
SECTION 18 - ACKNOWLEDGEMENTS AND
COVENANTS BY YOU
a. You acknowledge and agree that we may
rely without independent verification on the
mpl
mple
accuracy, authenticity and completeness
of
all information you provide to us;

PY

oan is successfu
suc
b. You agree that if your loan
successfully
epay the loan in
funded, you will repay
he agreed upon term
accordance with the
terms
specified under this Agreement and the
Exhibits attached
hed hereto.

O

c. You agree not to materially
change the
mater
ch
nature of the business that you
conduct
y
from the type
business originally
pe of busine
bus
disclosed
closed
sed to QuarterSpot in connection with
this
and
to conduct your
his Agreement
Agr
an
substantially in accordance with
business substantial
substantiall
past practices;
tices;

C

receive any form of commercial
d. You willl not
d
no rec
financing, including
in
but not limited to a
business lloan or merchant cash advance,
other
ther th
than from QuarterSpot for a period of
30 days
da following the submission of a loan
request;
e. You agree to notify us promptly if there is
an account change, with regard to any
Payment Account provided to us, and agree
to provide us with up-to-date account
information;

36a
f. You agree not to open a new account other
than the Payment Account to which
Customer Deposits will be received and not
to take any action to cause Customer
Deposits to be delivered to any account
other than the Payment Account;
g. You agree to maintain sufficient funds in
your Payment Account to cover any amount
he
e Payment
due in accordance with the
Schedule of the Note;

PY

h. You agree not to take any
y intentional
tion ac
action
that would substantially
lly
ly impair or
o reduce
reduc
the ability of the Borrower to sati
satisfy its
obligations underr this Agreement without
with
wit
our prior written
en permission;
permissio

O

i. You agree to notify
know of any
tify us If you kno
reason that
hat would pre
preclude QuarterSpot
Q
from processing or receivin
receiving payment in
receiv
accordance
Payment Schedule of
ordance
ance with the Paym
the
he Note;
ote;

C

j. You certify that the loan proceeds received
from QuarterSpot
arterSpot will solely be used for the
business
specific bu
busines purposes as set forth in
in the Note, and not for
any loan
n request,
r
req
personal, ffamily, household purposes or any
You understand that we will
illegal
llegal activity.
a
be unable
to verify how you will actually use
un
the loan proceeds. However, you agree that
its breach of the provisions of this section
will not affect our right to (i) enforce your
promise to pay all amounts owed under this
Agreement, regardless of the purpose for or
how the loan proceeds arc in fact used or (ii)
use any remedy legally available to

37a
QuarterSpot, even if that remedy would not
have been available had the loan been made
by us for consumer purposes;
k. You agree not to challenge the
enforceability or validity of this Agreement,
in whole or in part; and

O

PY

l. While
Borrower
has
unsatisfied
indebtedness to QuarterSpot under any
ter
terS
Note, you agree to notify QuarterSpot
prior
ing into
in oor with
to (i) consolidating or merging
any other business entity;
y; (ii) changing
cha
its
place of business, name
me or, if m
more than
one, chief executive office, its organizational
organiza
identification number(s),
address;
mber(s),
ber(s), its mailing add
addre
or (iii) changing
organization
ng its
it entity’s
ntit
organiz
type, its legal
of
al structure, its
i jurisdiction
jurisd
its organization.
does
zation.
ation. If Borrower
Borr
doe not have
an organizational
identification number
ganizational ident
identifica
and obtains
btains one at a later
late point in time,
you
of such
ou shall notify QuarterSpot
Q
Qua
identification number
numbe immediately.

C

SECTION
OTHER
BORROWER,
TION
TIO
19
O
REPRESENTATIONS
AND
WARRANTIES
EPRESENTATIONS
RESENTATIO
A
a. You have not:
(i) made any false,
a
inaccura
inaccurate, incomplete, misleading or
deceptive
statements or omissions of fact;
cep
(ii) misrepresented your identity or the
identity of your business, or described,
presented or portrayed yourself or the
business in a fraudulent manner; or
(iii) represented yourself to any person, as a
representative, employee, or agent of

38a
QuarterSpot, or purported to speak to any
person on our behalf;
b. You have not received nor plan to receive
any form of commercial financing other
than from QuarterSpot, including but not
limited to a business loan or merchant cash
advance, that has not been originally
disclosed in writing to us in connection with
this Agreement;

PY

tion
n to
t cl
c. You have no present intention
close or
cease operating your business,
siness, in whole or
in part, temporarily or permanently;
permanentl
d. You are solvent and
any
d not contemplatin
contemplating an
insolvency or bankruptcy
nkruptcy proceeding;
e. As of the date off this Agreem
Agreement, no eeviction
or foreclosure
threatened
sure iss pendin
pending or th
against Borrower;

C

O

f. The execution,
execut
xec ion, delivery and
a
an performance
of the obligations under
Agreement, all
und this
t
duly authorized, and
of which
ch have been
een d
any and all other documents, contracts
to and/or executed
and agreements
eements agreed
a
herewith, are within your
in connection
ect
full powe
power and authority, are not in
contravention of applicable law, have been
contraven
authorized,
authori
th
do not contravene your by-laws,
operating agreement, charter or other
organization documents, or any agreement,
contract, indenture or other undertaking
made by Borrower; It is not necessary for
QuarterSpot to inquire into your powers or
the officers, directors, agents, acting or
purporting to act on its behalf and any
Agreements made or created in reliance

39a
upon the professed exercise of such powers
shall be guaranteed hereunder;
g. The exact legal name of the Borrower, is set
forth in the loan application;
h. The loan application accurately reflects
your principal office and the location where
you retain, access and have available your
records relating to your accounts, property
and contract rights;

PY

ules, regula
re
i. You will comply with all rules,
regulations,
nances re
relating to
statutes, laws and ordinances
s;
you and your business;

O

ood standing and ful
j. Borrower is in good
fully
licensed to do business in every state
stat in
which it is conducting
business,
nducting
ducti b
usiness, and agrees
usi
that it shall
the
all remain
main so during
d
th term of
this Agreement,
reement, except where the failure
to comply
be expected
mply cannot reasonably
reasona
reasonabl
to have
impact on
ve a material
ria adverse
adv
d
Borrower's
wer's business
business, property, financial
condition of the value
valu or ownership fights in
Collateral;
or to the Collatera

C

k. Borrower
er is iin good standing, is duly
organized, is validly existing and is licensed
under the laws of its state of incorporation,
and
d sha
shall
h remain so during the term of this
Agreement;
l. Any and all capital stock issued and
outstanding by Borrower is and was
properly made;
m. All of Borrower’s records and books are upto-date and accurate, and shall be

40a
maintained in such a state during the term
of this Agreement;
n. All of Borrower’s organizational documents
and papers, and all amendments to such
documents and papers, have been properly
and duly filed and are in good and proper
order;

PY

o. Borrower is in compliance with its byrgan
ga
laws, operating agreement, organizational
plicable
ab
documents, charter, applicable
laws,
rules, regulations, ordinances,
nances,, contra
contracts,
c
agreements, covenants or other restrictions
restriction
res
by which it is bound,, other than those being
contested in good faith or where the failure
fa
failu
to comply cannot
be expected
not reasonably
reasona
exp
to have a material
impact
on
aterial adverse
adv
im
Borrower’s
financial
’ss business, property,
p
condition
ownership rights in
on of the value or ow
owner
or to the
he Collateral;
al;

C

O

p. Borrower
subject to any legal,
wer is not ssubj
restriction, or
corporate or charter-based
charter
any award, order, decree, judgment rule,
regulation,
ion law, contract or agreement that
be expected to have a
could reasonably
reasona
eas
material adverse
a
ad
impact on the Borrower’s
business, prospects, property or financial
business
condition
ndit
of the value or ownership rights in
or to the Collateral; and
q. Borrower attests that the Payment Account
was established for business purposes and
not primarily for personal, family or
household purposes.

41a
SECTION 20 - DEFAULT AND TERMINATION
You will be deemed in default on your loan (each, an
“Event of Default”) if:
a. We are unable to collect or do not receive
any scheduled payment three days after its
due date and we have not agreed to an
alternate Payment Schedule for you;
b. You violate any term, covenant or condition
of this Agreement;

PY

rranty
y statem
sstatement
c. Any representation, warranty
shall prov
made or furnished to uss by you sh
prove
ct, incomplete,
ncomplete, false or
to have been incorrect,
misleading in any
y material respect when
w
wh
made;
d. Any financial
al information
nformation provided by you
is intentionally
misleading;
onally
nally false or misleadin
m

O

e. You admit
inability to pay
dmit in writing your
your in
yourr debts, or make a gen
general assignment
for
creditors;
or the
e benefit of credito
cred

C

f. Any proceeding shall
sha be instituted by or
seeking to adjudicate you
against you seek
insolvent that is not dismissed
bankrupt
pt oor ins
(90) days;
within ninety
nin
liqu
id
g. You liquid
liquidate,
terminate, dissolve, suspend
or wind
i down your business;
h. Your ability to perform your obligations
under this Agreement is threatened or put
in jeopardy, including but not limited to a
circumstance, where you are in default
under any agreement, including a security
agreement, in favor of any other party to
whom you owe debt;

42a
i. You deny in writing that this Agreement or
any obligation of performance and liability
hereunder is binding; or you contest in
writing the enforceability or validity of this
Agreement or any guarantee of performance
in any forum; you default on your obligation
to guarantee performance of this Agreement,
or any guaranty of performance ceases to be
cl
in full force and effect or is declared
to be
null and void;

PY

j. If any managing member
ber dies,
die
w
where
Borrower is a limited liability
iability company;
com
if
any general partner orr partner dies, where
Borrower is a partnership;
nership; in the event th
that
Borrower is any
ny other form of business
bus
entity, any person(s) that
directly or
th
dire
indirectly controls
more of the
ls 10% or mo
ownership
such ent
entity dies;
hip interests of su

O

k. If any
take any of your
ny
y creditor
cr
tries too ta
property
we have a lien or
roperty
rty on or in which
wh
interest;
security interes
in
t; and

C

used for personal, family,
ll.. Loan proceeds are u
purposes or any illegal
or household
useh
activity.

ON 21 - RI
SECTION
RIGHTS AND REMEDIES UPON
DEFAULT
Subject to applicable law, if an Event of
T Subj
Default occurs under this Agreement, at any time
thereafter, we may exercise any one or more of the
following rights and remedies:
a. Accelerate Indebtedness: We may declare
the Loan Amount immediately due and
payable, without notice of any kind to you.

43a

PY

b. Remedy Election: Except as limited by
applicable law, all of QuarterSpot’s remedies
and rights, whether documented in this
Agreement or any related documents, or any
other writing, shall be cumulative and may
be exercised concurrently or singularly. Any
election by QuarterSpot to pursue a
particular remedy or recourse at any time
lim pursuit
shall not be deemed to exclude or limit
se at any
an other
of any other remedy or recourse
ctio to take
time, and any election or. selection
ditures to perform
perfor
action or make expenditures
your obligation underr the
he Agreemen
Agreement, after
rform
form by you, shal
any failure to perform
shall no
not
affect or impact
ct QuarterSpot’s right
righ to
declare a default
exercise any re
remedies
ullt and exerci
or recourse available
able to QuarterSpot.
QuarterSp
Q

C

O

SECTION 22 - FINANCIAL
INFORMATION
AND
INANCIAL INFO
INFORM
REEVALUATION
TION
ON OF CREDIT You hereby
authorize us to
financial
o obtain finan
financia data from third
parties at any time in conne
connection with your loan
connec
requests
sts
ts and, if your
your loan is issued, for any update,
renewal,
ewal,
wal, extension of credit
cred or other lawful purpose
thereon.
reon.
on.
SECTION
ON 23 - COL
CO
COLLECTION & REPORTING OF
DELINQUENT
UENT
ENT LOANS We reserve the right to
report loan payment delinquencies at or in excess of
thirty (30) days to one or more commercial reporting
agencies in accordance with applicable law. You also
agree that we may release information to comply with
governmental reporting or legal process that we
believe may be required, whether or not such is in fact
required, or when necessary or helpful in completing
a transaction, or when investigating a loss or

44a
potential loss. You are hereby notified that a negative
credit report reflecting on your credit record may be
submitted to a commercial credit reporting agency if
you fail to fulfill the terms of your credit obligations
hereunder. You agree to pay all costs of collecting any
delinquent payments, including reasonable attorneys’
fees, as permitted by applicable law.

PY

SECTION 24 - COSTS AND ATTORNEYS’ FEES
ag
agre
Except as limited by applicable law, you agree
to pay
d all
ll expenses,
exp
QuarterSpot on demand any and
including but not limited to collections,
ections, reasonable
re
reasona
attorneys' fees, filing fees, document
ment
ent fees and all other
e which may be in
incurred
expenses of any kind or nature
by QuarterSpot to enforce or obtain payment of the
Note.

O

SECTION 25 - INDEMNIFICATION
Each party
DEMNIFICATION
EMNIFICA
E
agrees to defend, indemnify and hold
ho the
th other party
harmless from
costs,
m any liabilities, damages,
d
expenses (including
fees) or
ncluding
ding reasonable
reasonab attorneys’
a
harm arising
sing out of or relating
atin to any violation or
alleged
d violation by you of this
thi Agreement.

C

SECTION
INTEREST
AND FEE REFUNDS
CTION
TIO 26 - INTERE
NT
If the
he loan is subject
subje to a law that sets maximum
charges,
s, and that law
la is finally interpreted so that the
interest orr other fees collected or to be collected in
connection with this Agreement exceed the permitted
limits, then (a) any such charge will be reduced by the
amount necessary to reduce the charge to the
permitted limit and (b) any sums already collected
from you that exceed the permitted limits will be
refunded or credited to you.
SECTION 27 - LOAN ASSIGNMENT You hereby
agree that we may, without notice to or consent by

45a
you, sell, assign or transfer all of our right, title and
interest in this Agreement.
SECTION 28 - NO FUNDING GUARANTEE WE
DO NOT WARRANT NOR GUARANTEE THAT
YOUR LOAN WILL BE FUNDED IN WHOLE OR IN
PART EVEN IF A LOAN LISTING IS POSTED ON
YOUR BEHALF.

PY

ME
SECTION 29 - ENTIRE AGREEMENT
This
hed hereto
here
h
Agreement and all Exhibits attached
are
hereby incorporated into and made
de a part
par of this
Agreement. This Agreement is the
he entire agreemen
ag
agreement
of the parties with respect to the
hee subject matter hereof
and supersedes any prior
verbal
rior
ior written or verb
ve
communications or instruments
uments relating thereto.
thereto
SECTION 30 - CONSENT
ONSENT
NT FOR ELECTRONIC
ELEC
SIGNATURES, RECORDS,
RECORDS, AND DISCLOSURES
DISC
(“E-CONSENT”)
T”)
”)

C

O

a. You are
re submitting a request for online
commercial financial
financia services from us. To
services, we need your
provide these se
consent tto use and accept electronic
and disclosures (“Esignatures,
es records,
r
Consent”). This E-Consent notifies you of
your rig
rights when receiving disclosures,
notices
otice and information from us. By clicking
“Sign-up,” “I Agree,” “Next,” or “Submit,” or
other links assenting to our terms, you
acknowledge you received this E-Consent
and that you consent to using electronic
signatures, records, and disclosures.
Additionally, by clicking “Sign-up,” “I
Agree,” “Next,” or “Submit,” or other links
assenting to our terms, you consent to

46a
conduct transactions by using electronic
disclosures, electronic records, and contract
documents (“Disclosures”). You may request
any Disclosures in paper form by logging in
and printing a paper copy. You may also
mail us your written request to our address
provided above. We will provide paper
copies at no charge. We will retain all
q
qu
Disclosures as applicable law requires.
This
raction
cti
E-Consent applies to all interactions
online
isi th
concerning you and us. By exercising
this Esss your inf
informati
Consent, we will process
information
and interact during alll online interactions
inte
cally. We will also send
sen
with you electronically.
you notices electronically
ctronically related to our
interactions and
You also
nd transactions.
sact
Yo
hereby agree
will apply to
ee that
at this consent
con
wil
you and all interactions you ma
may have with
third parties we refer
refe you to, including any
potential
as collection
entiial third-parties
third-parties
arties such
su
verification companies. This
agencies
es or verificatio
verifica
consent will apply to those interactions
until and unless you and such third-party
electronic consent
agree too a subsequent
sub
you decide to do business
agreement.
ent Before
B
electronically with us you should consider
electronica
whether you have the required hardware
and
capabilities described below.
d software
s
To access and retain the Disclosures
electronically, you will need to use the
following computer software and hardware:
A PC or MAC compatible computer or other
device capable of accessing the Internet and
an Internet Browser software program that
supports at least 128 bit encryption, such as

47a

C

O

PY

Microsoft® Internet Explorer, Netscape ®
or Mozilla Firefox®. To read some
documents, you may need a PDF file reader
like Adobe®, Acrobat Reader Xpdf ® or
Foxit®. If these requirements change while
you are maintaining an active relationship
with us, and the change creates a material
risk that you may not be able to receive
Disclosures electronically, we w
will notify
wi need a
you of these changes. You will
rage dev
device, such
printer or a long-term storage
k drive, to retain a
as your computer’s disk
copy of the Disclosures
es for future re
reference
reference.
ques
You may send us your written question
questions
regarding the hardware and softw
software
requirements by mail to ou
our address above.
You may withdraw
E-Consent
aw this E
-Consen at any
time and
if you
d at no charge.
charge However,
Howe
withdraw
thiss E
E-Consent
before receiving
raw
aw thi
-Consent be
online
financial services, this
ine commercial financ
will prevent you fr
from obtaining online
commercial financial
financia services from us. If at
to withdraw this Eany time you wish
wi
can
send us your written
Consent,
t, you
y
c
to our address above, with
request by mail
m
the details of such request. If you decide to
withdraw this E-Consent, the legal
withdra
effectiveness,
validity, and enforceability of
fect
prior electronic Disclosures will not be
affected. You should keep us informed of
any change in your electronic address or
mailing address. You may update such
information by logging into the website and
providing the updated information. You

48a
may also send us your written update by
mail to our address above.

C

O

PY

b. BY CLICKING “SIGN-UP,” “I AGREE,”
“NEXT,” OR “SUBMIT,” OR OTHER LINKS
ASSENTING TO OUR TERMS YOU
ACKNOWLEDGE THAT YOU CAN
ACCESS THE DISCLOSURES IN THE
DESIGNATED FORMATS DESCRIBED
ABOVE. Once you give your con
consent, you
acc
can log into the website too access
these
documents. BY CLICKING
NG “SIGN
“S
“SIGN-UP,”
“I AGREE,” “NEXT,” OR SUBM
SUBMIT,” O
OR
SSENTING
NTING TO OUR
OTHER LINKS ASSENTING
TERMS YOU ACKNOWLEDGE
NOWLEDGE YOU HAVE
HAV
H
READ THIS INFORMATION
ABOUT
INFORMA
AB
ELECTRONIC
RECORDS,
IC SIGNATURES,
SIGNATUR
REC
DISCLOSURES,
BUSINESS
URES,
RES, AND DOING
D
B
ELECTRONICALLY.
CONSENT TO
RONICALLY. YO
YOU CO
USING
NG
G ELECTRONIC SIGNATURES,
HAVING
DISCLOSURES
PROVIDED
AVIN
NG ALL DISCLOSU
CL
AVAILABLE TO YOU IN
OR MADE AVAILAB
AVAIL
FORM AND TO DOING
ELECTRONIC FOR
BUSINESS
SS WITH US ELECTRONICALLY
ACKNOWLEDGE THAT YOU
YOU AC
ACKNO
MAY REQ
REQU
REQUEST
A PAPER COPY OF
ELECTRONIC RECORDS AND
THE EL
DISCLOSURES,
DISCLO
ISCL
WHICH WE WILL
PROVIDE
O
TO YOU AT NO CHARGE.
IF YOU REFRAIN FROM PROCEEDING
THEN YOU NEITHER WISH TO
USE
ELECTRONIC
SIGNATURES
NOR CONDUCT THIS TRANSACTION
ELECTRONICALLY.
YOU
ALSO
ACKNOWLEDGE THAT YOUR CONSENT
TO ELECTRONIC DISCLOSURES IS

49a
REQUIRED TO RECEIVE ONLINE
COMMERCIAL FINANCIAL SERVICES
FROM US OVER THE INTERNET.

O

PY

SECTION 31- NOTICES All notices and other
communications to you hereunder may be given by
email to your registered email address, or posted on
the Website, and shall be deemed to have been duly
given and effective upon confirmed transmission. You
su
s
acknowledge that you have sole access too such
email
ebsite
te and that
account and your profile on the Website
communications from us may contain
n sensitive,
sensiti
confidential, and collections-related
ted communications.
commun
communications
mail address, you mus
If you wish to change an email
must
notify QuarterSpot of the change
hange by sending an em
eemail
to support@QuarterSpot.com,
website
.com,
com, logging into the w
and providing the information
appropriate
nformation
mation in the app
section, or calling 1-800
1-800-775-5143.
800--775
775-5143.
5143 You also
al agree to
update your registered business
address and
busines
telephone number
change.
mber
er on the Website if they
t

C

SECTION
WARRANTIES EXCEPT AS
N 32
3 - NO WARRA
WARRAN
EXPRESSLY
ESSLY SET FORTH IN THIS AGREEMENT,
QUARTERSPOT
MAKES N
NO REPRESENTATIONS
ARTERSPOT
RTE
OR WARRANTIES TO BORROWER, INCLUDING,
LIMIT
LIMI
BUT NOT LIMITED
TO, ANY IMPLIED
WARRANTIES
ANTIES OF
O
MERCHANTABILITY OR
FITNESS FOR
OR A PARTICULAR PURPOSE.
SECTION 33 - LIMITATION ON LIABILITY IN
NO EVENT SHALL EITHER PARTY BE LIABLE TO
THE OTHER PARTY FOR ANY LOST PROFITS OR
SPECIAL, EXEMPLARY, CONSEQUENTIAL OR
PUNITIVE DAMAGES, EVEN IF INFORMED OF
THE POSSIBILITY OF SUCH DAMAGES.
FURTHERMORE, QUARTERSPOT MAKES NO

50a
REPRESENTATION
OR
WARRANTY
TO
BORROWER REGARDING THE EFFECT THAT
THE
AGREEMENT
MAY
HAVE
UPON
BORROWER’S FOREIGN, FEDERAL, STATE OR
LOCAL TAX LIABILITY.

PY

SECTION 34 - MISCELLANEOUS The parties
acknowledge that there are no third party
beneficiaries to this Agreement. You may not assign,
tee your
y
you
transfer, sublicense or otherwise delegate
rights
ent to another
an
or obligations under this Agreement
person without QuarterSpot’s prior
or written
ten cons
consent.
Any such assignment, transfer,
sfer,
fer, sublicense
sublic
or
shall b
delegation in violation of thiss SECTION 36 sh
be
null and void.

C

O

SECTION 35 - ARBITRATION
ITRATION
RATION T
The parties
partie agree
that any claim, allegation
gation
ation or dispute
dispu arising
arisin out of or
relating to thiss Agreement, including
without
includ
in
limitation, any
dispute
regarding
y claim, allegation or di
d
the terms, scope,
construction,
cope, interpretation,
interpretati
interpre
performance,
termination
nce, breach, terminat
terminatio or enforceability of
this Agreement,
greement, may be,
be, at the election of either
party,
y, submitted to and resolved by mandatory
binding
ding
ng arbitration, to take place in the State of
nia
ia,, to take pla
place within a reasonable time after
Virginia,
the making
king of such a demand by a party, such time
period not to exce
exceed ninety (90) days after request by
the requesting
party. Arbitration under this
i
Agreement shall take place before and be
administered by JAMS. Except as limited by this
Agreement, the proceeding shall be conducted under
the Expedited Procedures of JAMS’ rules and
procedures. The arbitrator presiding over the
proceeding shall be selected under JAMS’ procedures,
and shall base its determinations and awards under

51a

PY

Virginia law. Any award issued by the arbitration
may be entered and enforced in any court having
jurisdiction in accordance with SECTION 38 of this
Agreement. The costs associated with the arbitration
charged by JAMS shall be split evenly among the
parties to the arbitration, although QuarterSpot will
consider a good faith request by you for QuarterSpot
to pay the posts of arbitration, Arbitration may only
a a class or
be pursued in an individual capacity, not as
e iind
representative member of more than one
individual.
he po
ow
wer oor be
The arbitrator shall not have the
power
an
n one individual
indi
authorized to consolidate more than
or
entity’s claim in arbitration proceedings
oceedings w
with any
arbitration proceedings,
proceeding
oceed
other person or entity’s otherr arbitra
and may not otherwise authorize
uthorize
thorize or preside over any
claim purporting to represent
than one
resent
sent a class
ass or
o more th
individual or entity.
section
is
y. This
his arbitration
arbitr
s
governed by the Federal Arbitration
Act
Arbitr
A 9 U.S.C.
§§ 1-16.

C

O

SECTION 36 - COMMERCIA
COMMERCIAL
/ BUSINESS
ER
PURPOSE
CERTIFICATION
BY
SE
LOAN
CER
SIGNING
CERTIFY THAT THIS
ING
NG BELOW, YOU C
LOAN
TO YOU, A BUSINESS,
AN
N IS BEING MADE
M
FOR
THE PROCEEDS
R BUSINESS PURPOSES.
PUR
P
WILL NOT BE USED FOR PERSONAL,
FAMILY,, OR HOUSEHOLD
H
PURPOSES. YOU
LEDG THAT THE ENTITY OBTAINING
ACKNOWLEDGE
THIS LOAN HAS ENGAGED IN LAWFUL,
ONGOING BUSINESS AND WAS NOT FORMED
FOR THE PURPOSE OF OBTAINING THIS
CREDIT. YOU ACKNOWLEDGE AND AGREE
TO SUBMIT ANY ADDITIONAL CERTIFICATION,
AFFIDAVIT,
ACKNOWLEDGMENT,
OR
FURTHER SUBSTANTIATION WE MAY REQUEST

52a
REGARDING THE BUSINESS PURPOSE OF THIS
EXTENSION OF CREDIT.
SECTION 37 - ADDITIONAL ACKNOWLEDGMENTS By electronically signing, you acknowledge
and agree to the following:
a. CAUTION -- IT IS IMPORTANT THAT
YOU THOROUGHLY READ THE
U SIGN
S
AGREEMENT BEFORE YOU
IT.

PY

ontract.
act Interest
In
b. This is a simple interest contract.
e unpaid
id princi
is calculated daily on the
principal
has been
until the full amount off principal h
nearned finance ch
charges
paid. There are no unearned
charges.

C

O

c. Oral agreementss or commitments to loan
money, extend
nd
d credit or to forbear from
enforcing repayment
ment of a debt including
promises to extend or rrenew su
such debt are
not enforceable,
of the legal
nforceable, regardless
regardle
theory
based that is in any
ory
y upon which it is ba
bas
credit agreement. To
way related
elated to the cre
(borrower(s)) and us (creditor)
protect you (borrowe
misunderstanding
or disappointment,
f
from
misunderstan
understan
we reach covering such
any agreements
agreement
ree
contained in this writing, which
matters are
ar co
and exclusive statement of
is the complete
com
comp
the agre
agreement between us, except as we
may
ay later
l
agree in writing to modify it.
d. Oral Modifications. Oral agreements or
commitments to loan money, extend credit
or to forbear from enforcing repayment of a
debt including promises to extend or renew
such debt are not enforceable. To protect
you (borrower(s)) and us (creditor) from
misunderstanding or disappointment, any

53a
agreements we reach covering such matters
are contained in this writing, which is the
complete and exclusive statement of the
agreement between us, except as we may
later agree in writing to modify it.
e. NOTICE: (1) Do not sign this agreement
before you read it. (2) You are entitled to a
copy of this agreement. (3) You may prepay
ime
m without
the unpaid balance at any time
ed to receive
rec
penalty and may be entitled
a
refund of unearned charges
ges in accordance
accord
ac
with law.

PY

commitments to
f. Oral agreements orr oral commitme
loan money, extend
end credit,
credit, or to forbear
forb
for
from enforcing repayment oof a debt are
ar not
enforceable under
der applicab
applicable law.

C

O

SECTION 38 - VIRGINIA GO
GOVERNING LAW,
GOVERN
CHOICE OF VIRGINIA FORU
FORUM Subject to
SECTION 36
(including this
6 above/our
bove/our relationship
relationsh
relati
Agreement
or controversy
nt and any claim, dispute
d
dis
(whether
er in contract, tort, or otherwise) at any time
arising
or relating
ng
g from
fr
ating to this
th Agreement is governed
by, and this Agreement
will be construed in
Agreeme
Agr
accordance
danc with, appl
dance
applicable
ap
federal law and (to the
extent not preempt
preempted by federal law) Virginia law
egard
gard tto internal principles of conflict of
without regard
laws. The legality,
al
enforceability and interpretation of
this Agreement and the amounts contracted for,
charged and reserved under this Agreement will be
governed by such laws. You understand and agree
that (i) we are located in Virginia, (ii) we make all
credit decisions from our office in Virginia, (iii) Loans
are made in Virginia (that is, no binding contract will
be formed until we receive and accept your signed

54a

C

O

PY

Agreement in Virginia) and (iv) your payments are
not accepted until received by us in Virginia.
Borrower further acknowledges that: (i) Borrower’s
loan requests are received at our office in Arlington,
Virginia; (ii) we completed our underwriting process
resulting in this transaction at our office in Arlington,
Virginia; (iii) all agreements between you and us will
be effective only after received by us at our office in
p
pr
Arlington, Virginia; (iv) we provide proceeds
to
rginia;
gin
Borrower from a bank account in Virginia;
(v) we
ia; (vi)
i) we
w se
process all transactions from Virginia;
service
and (vii) all
the transaction from the State of Virginia; an
payments are deemed made when
hen
en received by
b us at
rginia.
ginia. Borrower hereby
hereb
h
our office in Arlington, Virginia.
expressly consents to Virginia law and for
forum.
fo
Borrower acknowledgess that in the event
litigation
ev
of lit
arising under this Agreement,
litigation in
ement, tthat litig
Virginia spares the
he Borrower the costs oof paying for
transporting Virginia
elsewhere. Borrower
irginia
rginia evidence elsewh
elsew
acknowledgess that
hat the signing of these terms is a
culmination
carried on in Virginia.
on of a series of acts car
Borrower
er agrees that Virginia is the most convenient
location
to this Agreement.
ion
on to stand suit, as it relates
r
Unless
applicable law, this Agreement
lesss prohibited by app
shalll be governed by,
applied and enforced
by construed,
co
in accordance
rdance with the laws of the State of Virginia
without regard
egard to principles of conflicts of law. Any
arbitration as provided for in this Agreement will
take place in the state of Virginia.
Full Name: JENNIFER NEUHAUS
Date:

July 28, 2016

Signature:
(Authorized Signor/ Owner)

55a
Full Name:
Date:
Signature:

(Authorized Signor/ Owner)

Full Name:
Date:
(Authorized Signor/
r/ Owner)

C
O
PY

Signature:

Full Name:
Date:

Signature:

(Authorized
Aut
Signor/ Owner)
Ow
O

Full Name:
ame:
Date:
te:

Signature:
ature:
ture

(Authorized
(Aut
Signor/ Owner)

Full Name:
Date:
Signature:
(Authorized Signor/ Owner)

56a
EXHIBIT A: NON-NEGOTIABLE PROMISSORY
NOTE 1
(TO
BE
EXECUTED
ELECTRONICALLY
PURSUANT TO SECTION 9)
For value received, I (“Borrower,” “you”) promise to
pay to the order of QuarterSpot or any subsequent
holder (collectively, “Lender,” “us”) of this Promissory
n Amount”)
Note, the principal (“Principal” or “Loan
sand
and Dollars
of One Hundred and Fifty Thousand
($ 150,000.00) with interest as set forth
rth bel
below.

O
PY

Issue Date: 7/29/2016
Term:

540 Calendar Days.

Loan Amount: $ 150,000.00
,000.00
00.0

C

Total Interest $ 35,719.84
35,719.84.. This
T
Note
Not is a fully
amortizing loan
n that bears interest
inter
during each
calendar day from
until the final day of
m its Issue Date
Da unti
unt
its stated Term,, subject
su
to prepayment
pre
prepa
as set forth
herein. Interest is calculated, oon a daily basis upon
the unpaid
npaid balance with each day representing
1/360th
60th
th of a year.
ment
ent Schedule:
Schedule ( Daily Business Days ). This
Payment
Note must be re
repaid according to its payment
schedule, subject
ubject
bj
to prepayment as set forth herein. A
fixed paymentt of
Four Hundred and NinetySix Dollars and- Fifty Cents ($ 496.50 ) representing
principal and interest will become due according to
the Note’s payment schedule.
Fees: Upon execution of this Note, the Borrower will
be responsible for fees identified in SECTION 11 and

57a
16 of the Borrower Agreement between QuarterSpot
and the Borrower (the “Borrower Agreement”):
Note Repayments: All payments on this Note shall
be made in immediately available lawful United
States money. All payments hereunder are to be first
applied to the payment of expenses and, fees, then to
the unpaid Loan Amount with interest; provided,
however, that after an Event of Default (as defined in
ill
ll be
b applied
the Borrower Agreement), payments will
QuarterSp
art
to your obligations as determined by QuarterSpot,
in
its sole discretion.

C

O

PY

Prepayments and Partial Payments: Borrower
Bo
may make any payment in advance of the Payme
Payment
Paym
Schedule, in whole or in
penalty or
n part,
pa , without penal
part
premium at any time. Any
is to be
y partial prepayment
pre
applied first to expenses
is
enses for which
whic the Borrower
B
liable hereunder and then to any unpaid
amount due
u
and payable under the Note at
a the time of
prepayment.. Unless
Borrower’s prepayment
Unl
the Borrow
Bo
satisfies all amounts due under
unde the Note at the time
it is received,
funds will be held and
eceived, any excess fu
applied
indebtedness to
lied
ed to the Borrower’s
Borro
QuarterSpot
arterSpot
terSpot at the time the Borrower’s obligations
mee due and payable
pay
p
become
in accordance with the
paymentt schedule of
o this, or any other Note. Interest
will continue
at the same rate regardless of
ue to
t accrue
a
prepayment until either (i) payment of the Note is
received in full or (ii) the final calendar day of the
Note’s stated Term. Partial prepayment of this Note
does not relieve the Borrower of its obligation to pay
the remaining balance due under this Note prior to
the final calendar day of the Term. We may accept
late payments or partial payments, even though

58a
marked “paid in full”, without losing any rights under
this Note.
Security Interest: Upon execution of this Note, the
Borrower grants QuarterSpot a continuing security
interest in and to any and all “Collateral” as described
in the SECTION 17 of the Borrower Agreement to
secure payment and performance of all debts,
liabilities and obligations of you to us hereunder.

PY

aultt (as
(a defined
d
Event of Default: If an Event of Default
in the Borrower Agreement) occurs due too Borrower’s
B
Borrow
failure to make a payment when
en
n due, interest
inte
wi
will
continue to accrue at the current
ent interest
terest rate on the
unpaid balance of the loan.

C

O

Miscellaneous: This is a nonnon-negotiable
Note.
non
-negotiable
n
Notwithstanding thee foregoing,
going, we have the
th right to
assign this Note,
limitation,
e, including without
w
without any notice
Borrower, advance or
otice to the Borrow
Borrowe
otherwise. The
have the right and
he Borrower does not h
you may not assign
QuarterSpot’s
sign this Note without
wi
prior written consent. This Note inures to the
successors,
representatives and permitted
essors,
sor
heirs, represen
represe
assigns
igns
ns of the Borrower
Borrow and
a QuarterSpot.
The Borrower
hereby waives notice of non-payment,
orrower hereb
demand, protest a
and all other notices or demands
whatsoever,, and the Borrower hereby consents that,
without notice to and without releasing any party’s
liability, we may, in whole or in part, from time to
time, extend, modify, change, amend, accelerate,
compromise, settle of release the obligations
evidenced by this Note.

59a
Any changes to this Note must be in writing signed by
the Borrower and us. Notices will be mailed
electronically.
Controlling Law: Our relationship (including this
Agreement and any claim, dispute or controversy
(whether in contract, tort, or otherwise) at any time
arising from or relating to this Agreement is governed
by, and this Agreement will be construed in
accordance with, applicable

C

O

PY

federal law and (to the extent not preempted
eem
by
federal law) Virginia law without
ut regard to internal
intern
principles of conflict of laws. The legality
legality,
le
enforceability and interpretation
tation of this Agreement
Agreeme
greem
and the amounts contracted
ted
ed for, charged and reserved
res
rese
under this Agreement will
such laws.
ill be governed
vern by suc
You understand and
d agree that (i)
(i we are located in
Virginia, (ii) we make all credit decisions
from our
decisio
d
office in Virginia,
made in Virginia
nia,
a, (iii) the Loan is m
(that is, no binding
will be
ding contract w
b formed until we
receive and accept your sig
signed
Agreement in
s
Virginia)
are not accepted
ia)
a) and (iv) your payments
paym
untill received by u
Borrower further
us in
i Virginia.
V
acknowledges
Borrower’s loan request was
knowledges
wledges that: (i) B
ved
ed at our office
offic in Arlington, Virginia; (ii) we
received
completed
ed our unde
underwriting process resulting in this
transaction
our office in Arlington, Virginia; (iii) all
n att ou
agreements b
between you and us will be effective on
the only after received by us at our office in Arlington,
Virginia; (iv) we provide proceeds to Borrower from a
bank account in Virginia; (v) we process all
transactions from Virginia; (vi) we service the
transaction from the State of Virginia; and (vii) all
payments are deemed made when received by us at
our office in Arlington, Virginia. Borrower hereby

60a

PY

expressly consents to Virginia law and forum.
Borrower acknowledges that in the event of litigation
arising under this Note, that litigation in Virginia
spares the Borrower the costs of paying for
transporting Virginia evidence elsewhere. Borrower
acknowledges that the signing of these terms is a
culmination of a series of acts carried on in Virginia.
Borrower agrees that Virginia is the most convenient
location to stand suit, as it relates to this No
Note. Unless
ote sshall be
prohibited by applicable law, this Note
en
enforce
governed by, construed, applied and enforced
in
e State of Virgin
accordance with the laws of the
Virginia
without regard to principles off conflicts of law.
la Any
No will take place
plac
arbitration as provided for in this Note
in the state of Virginia.

C
O

Use of Proceeds: Borrower
certifies, acknowledges
orrower
wer certifi
ackno
and understands that
will be used
hat the loan proceeds
pr
w
solely for the business
siness
iness purposes that the Borrower has
represented to us in connection with your loan
request, and
purposes are hereby
nd such
uch business pur
incorporated
ated by reference.
refer
Borrower:
rower:
ow
By:

Date:

BACKWOODS
RETAIL INC
BACKW
ACKW

QuarterSp
QuarterSpot,
rter
Inc, on behalf of Borrower
July 28, 2016

61a
PLAINTIFF’S
EXHIBIT
B
ALLONGE TO PROMISSORY NOTE

PY

This Allonge is attached to and forms a part of
that certain Promissory Note dated July 29, 2016, in
the original principal amount of One Hundred and
Fifty Thousand Dollars ($150,000.00),
made by
0),
), m
BACKWOODS RETAIL INC, payable
ble to the order
of QUARTERSPOT INC., a Delaware
aware corporation
corporat
co
(“Lender”).
Pay to the order of DIRECT LEND
LENDING
LENDIN
INCOME FUND, LP, its
participants
ts successo
successors, particip
cip
and assigns, without
outt recourse and without
representation or warranty,
arranty,
rranty, expressed
expre
or iimplied by
Lender.

O

Dated: August
ugust 24, 2017

C

IN
WHEREOF, the undersigned
N WITNESS WHEREO
WHERE
has caused
aused
used this instrument to be executed by its duly
authorized
officer
as of the day and
horized
riz
offficerr to be effective
e
year,
r, written above.
LENDER:
NDER:

QUARTERSPOT
INC.
ER
Signature: /s/
Full Name: Lance Emanuel

Title:

President and Chief Operating Officer

62a
PLAINTIFF’S
EXHIBIT
C
VIRGINIA: IN THE CIRCUIT COURT FOR
ARLINGTON COUNTY
DLI Assets Bravo, LLC

*
*
Plaintiff,
*
*
vs.
*
Case No.:
*
Backwoods Retail, Inc., et al.
*
*
Defendant(s).
*
*************************************************
STATEMENT OF DEBT
Unpaid principal balance
$ 127,297.15
Interest through 2/26/2019
$ 87.129.74
(continues to accrue at the rate of $103.23 per day)
TOTAL DUE TO PLAINTIFF
$ 214,426.89
Total due as of February 26, 2019
/s/
DLI Assets Bfavo, LLC
By: Graciela Burrola
Title: Asset Manager
A notary public or other officer completing this
certificate verifies only the identity of the individual
who signed the document to which this certificate is
attached, and not the truthfulness, accuracy or
validity of that document.

63a
State Of California:
County of Los Angeles:
Subscribed and sworn to before me on this 28th day
of February 2019, by Graciela Burrola, Proved to me
on the basis of satisfactory evidence to be the person
who appeared before me.
(Seal)

Signature

/s/

64a
PLAINTIFF’S
EXHIBIT
D
quarterspot
BORROWER VALIDITY AGREEMENT
To induce QuarterSpot to enter into a Borrower
Agreement with the Borrower, the undersigned
hereby agrees to indemnify QuarterSpot and hold
QuarterSpot harmless against any loss which
QuarterSpot may suffer as a result of a breach of
SECTION 18 and 19 of the Loan Agreement
(collectively “Indemnity Payments”). Indemnity
Payments shall include, but not be limited to, any
amounts due under any loan the Borrower receives
from QuarterSpot (collectively, “Payments”). The
undersigned further agrees to make Indemnity
Payments on demand without requiring us to enforce
Indemnity Payments against the Borrower.
The undersigned waives all notices to which the
undersigned might otherwise be entitled by law, and
also waives all defenses, legal or equitable, otherwise
available to the undersigned. Any action arising
hereunder shall, if the undersigned shall elect, be
instituted in accordance with SECTION 35 of the
Borrower Agreement.
IN WITNESS WHEREOF, the Borrower has duly
executed this Agreement as of the date first below
written.
JENNIFER NEUHAUS
Name
Initials

July 28, 2016
Date

65a
quarterspot
BORROWER VALIDITY AGREEMENT
To induce QuarterSpot to enter into a Borrower
Agreement with the Borrower, the undersigned
hereby agrees to indemnify QuarterSpot and hold
QuarterSpot harmless against any loss which
QuarterSpot may suffer as a result of a breach of
SECTION 18 and 19 of the Loan Agreement
(collectively “Indemnity Payments”). Indemnity
Payments shall include, but not be limited to, any
amounts due under any loan the Borrower receives
from QuarterSpot (collectively, “Payments”). The
undersigned further agrees to make Indemnity
Payments on demand without requiring us to enforce
Indemnity Payments against the Borrower.
The undersigned waives all notices to which the
undersigned might otherwise be entitled by law, and
also waives all defenses, legal or equitable, otherwise
available to the undersigned. Any action arising
hereunder shall, if the undersigned shall elect, be
instituted in accordance with SECTION 35 of the
Borrower Agreement.
IN WITNESS WHEREOF, the Borrower has duly
executed this Agreement as of the date first below
written.
C Al Buis
Name

Initials

July 28, 2016
Date

66a
AFFIDAVIT OF C. AL BUIS
STATE OF TEXAS
COUNTY OF TARRANT

§
§
§

BEFORE ME, the undersigned notary, on this
day personally appeared C. Al Buis, the affiant, a
person whose identity is known to me. After I
administered an oath, affiant testified as follows:
1. My name is C. Al Buis. I am over 18 years
of age. I am of sound mind, and am capable
of making this affidavit. The facts stated
herein are within my personal knowledge
and are true and correct.
2. I am a resident of Fort Worth, Texas. I have
never maintained a residence of any sort in
the Commonwealth of Virginia. I have been
to Virginia only a couple of times in my life;
once over a decade ago to look at an
investment opportunity that I declined, and
one another time for a short vacation.
3. I do not now, nor have I ever maintained a
persistent course of conduct in Virginia;
more specifically:
a. I have never transacted business of
any sort in Virginia;
b. I have never contracted to supply
services of any kind in Virginia.
Moreover, I have never signed any
legal documents of any kind in
Virginia;

67a
c.

I have not caused tortious injury in
Virginia by my acts or omission
either inside or outside of Virginia;

d. I have not personally sold any goods
or consumables inside or outside of
Virginia, and therefore have not
beached any express or implied
warranties within the state of
Virginia related to the sale of goods
or consumables;
e. I do not have an interest in any real
property located in Virginia, nor have
I used or possessed any real property
located in Virginia;
f. I have never insured any person,
property or risk that was located in
Virginia at the time of contracting, or
any time thereafter that I am aware
of;
g. I have never entered into an
agreement paying spousal or child
support in Virginia, or any other
location;
h. At no time in my life have I
maintained a marital residence in
Virginia; and
i. I owe no taxes, penalties, fines,
interest, or any other charges to any
local subdivision of Virginia.
4. I do not know the company “QuarterSpot”
that supposedly provided the loan made the

68a
basis of this lawsuit. I have never spoken to
anyone with QuaterSpot individually or on
behalf of any company I have ever been
associated with, including Backwoods
Retail, Inc.
5. I personally have never contacted
QuarterSpot to obtain financing of any type.
I do not believe I initialed the “Borrower
Validity Agreement” that was included as
an exhibit to the lawsuit. I have a very
specific manner in which I write my initials
and those included on the “Borrower
Validity Agreement” do not remotely
resemble my written initials.
6. The company Backwoods Retail, Inc., of
which I was affiliated before it filed for
bankruptcy, maintain no stores in Virginia
and was not registered to do business in the
Commonwealth of Virginia.
[SIGNATURE PAGE TO FOLLOW]
/s/
C. Al Buis
SUBSCRIBED AND SWORN to me on the 29th day of
February 2020, to certify which witness my hand and
official seal.
/s/
Notary Public, State of Texas
[Seal]

69a
VIRGINIA:
IN THE CIRCUIT COURT
FOR ARLINGTON COUNTY
------------------------X
DLI ASSETS BRAVO, LLC,
Plaintiff,

:
:

v.

: Case No.

BACKWOODS RETAIL, INC., : CL19001027-00
et al.,

:
Defendants.

:

------------------------X
Arlington, Virginia
Friday, June 26, 2020
Hearing on Motion to Quash Service and
to Dismiss for Lack of Personal Jurisdiction in the
above-entitled matter before the Honorable Judge
William T. Newman, Jr., taken remotely via
telephone at 11:43 a.m. eastern time, Friday, June 26,
2020, and the proceedings being taken down by
Stenotype by Rebecca L. Stonerock, RPR, and
transcribed under her direction.
*

*

*

C. AL BUIS,
called as a witness by counsel for Buis, and having
been duly sworn by the Court, was examined and
testified as follows:

70a
EXAMINATION
BY MR. TATGE:
Q.
Mr. Buis, could you please state your
name for the record?
A.

It is C. Al Buis.

Q.

And your address, please, sir?

A.
It’s 4951 Overton Woods Court, Fort
Worth, Texas 76109.
Q.

All right. How long have you lived there?

A.
I’ve lived in Fort Worth approximately
48, almost 50 years.
Q.

Have you ever lived in Virginia?

A.

I have never lived in Virginia.

Q.

Have you ever worked in Virginia?

A.

I have never worked in Virginia.

Q.
I refer you to the affidavit that was
previously filed that’s has been entered into evidence
as Exhibit 2. Is that -- was that your affidavit -A.

Yes, sir.

Q.

-- class?

A.

Yes, sir.

Q.
Mr. Buis, were you ever personally a
stockholder of Backwoods Retail, Inc.?
A.

No.

71a
Q.

Who owns Backwoods Retail, Inc.?

A.
It is owned 100 percent -- or it was
owned 100 percent by a company called Jo-Jo
Holdings.
Q.
Were you ever a personal stockholder of
Jo-Jo Holdings, Inc.?
A.

No, sir.

Q.
Who is the majority stockholder of Jo-Jo
Holdings, Inc.?
A.
It’s -- Jennifer Mull Neuhaus is the
majority holder.
Q.

And was that by a revocable trust of

A.

Yes, sir.

hers?

Q.
And who was the minority holder of the
other 40 percent?
A.

It’s a partnership called NOR Partners

LP.
Q.
And who is the -- what ownership did
you have in NOR Partners LP?
A.
I owned approximately 20 percent of
that partnership.
Q.

And was part as a general partner?

A.

Yes.

72a
Q.
So you owned the corporate -- 100
percent of the corporate general partner of that
partnership?
A.

Yes.

Q.

And that was an S corporation?

A.

It was.

Q.
And the other part you owned as a
limited partner?
A.

Yes.

Q.
All right. So I refer you to the promissory
note that was attached to this Complaint from
QuarterSpot, Inc. to Backwoods Retail, Inc. Did you
ever negotiate that financing?
A.

No.

Q.
Did you ever ask anyone to sign your
name to the alleged Borrower Validity Guarantee
that was attached as part of Exhibit D to the
Complaint?
A.

No.

Q.
Did you ever agree to have electronic
signatures of your name on any documents to
QuarterSpot, Inc.?
A.
questions.

To my knowledge, no.
MR. TATGE: Your Honor, no further
*

*

*

